App.la

U.S. DISTRICT COURT MAGISTRATE
MEMORANDUM AND RECOMMENDATION
(JANUARY 14, 2013)
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE M. MICHAEL,
§
Plaintiff,
§
§

§ CIVIL ACTION
§ NO. H-12-3093
UNITED STATES OF AMERICA,
Defendant.
MEMORANDUM AND RECOMMENDATION
Pending before the court1 is Defendant’s Motion
to Dismiss (Doc. 10). The court has considered the
motion, all relevant filings, and the applicable law.
For

the

reasons

RECOMMENDS

set
that

forth

below,

Defendant’s

the
motion

court
be

GRANTED.
i

This case was referred to the undersigned
magistrate judge pursuant to 28 U.S.C. § 636(b)(1)(A) and
(B), the Cost and Delay Reduction Plan under the Civil
Justice Reform Act, and Federal Rule of Civil Procedure 72.
Doc. 9.

App.2a

Also pending before the court are Plaintiffs
Motion to Expedite Proceedings and Objection to
Rule 16 Scheduling Order (Doc. 8) and Plaintiffs
Motion for Summary Judgment or Default Judgment
(Doc. 15)
If this memorandum and recommendation is
adopted, Plaintiffs motion to expedite proceedings
and Plaintiffs motion for summary judgment will be
MOOT.
I.

Case Background

As the court understands Plaintiffs complaint,
Plaintiff, a veteran with claims of anxiety and
depression, applied for benefits from the United
States Department of Veteran Affairs (“VA”) in
oraround September 1993.

2

^ See Doc. 1, Pl.’s Compl., t 19.

App.3a

Plaintiff claims that the “VA did not recognize
the claims and failed to rate code or adjudicate the
issue although required to adjudicate all issues
3

raised.” Plaintiff submitted a subsequent application
for benefits and, in 2004, was awarded VA benefits for
4

anxiety with an effective date of August 2003.
Plaintiff objected to August 2003 as the
effective date of compensation for her VA benefits,
claiming that the determination was a clear and
5

error.
unmistakable
exhausted
her
She
administrative remedies as to the effective date of
compensation by submitting a Notice of Disagreement
with the determination, filing a motion for
reconsideration with the VA, and appealing to the
Court of Appeals for Veterans Claims for a writ of
mandamus, the denial of which was affirmed by the
Federal Circuit.

In December 2011, a reduction of

Plaintiff s benefits was proposed.

7

^ IcL, see also id. f 14.
^ See id. f 20.
^ See id, Iff 21, 29.
6 See id, ff 21-24.
n

See id. f 26. The complaint references December 16,
2012, as the date on which the reduction was proposed. See
id. Given that this pleading was filed in October 2012, the
court assumes that the December 2012 is a typographical
error and should read December 16, 2011, as the relevant
date.

App.4a

A hearing on the reduction issue was held in
May 2012 and, in June 2012, a decision granting
Plaintiffs continued compensation at the original
g

rate was issued. At the hearing, Plaintiff was not
permitted to testify regarding the August 2003
9

effective date of her compensation. On October 18,
2012, Plaintiff filed this lawsuit against Defendant
under the Federal Tort Claims Act (“FTCA”),10
alleging that Defendant was negligent in handling
Plaintiffs benefits claims dating back to 1993,
thereby depriving her of VA benefits to which she was
entitled.11 On December 10, 2012, Plaintiff filed a
12

motion to expedite the proceedings. Eight days later,
on December 18, 2012, Defendant filed the pending
motion to dismiss and a response to Plaintiffs
motion to expedite the proceedings.

13

8 See id. f 27.

^ See id.
10 28 U.S.C. §§ 2671 et seq.
H See Doc. 1, Pl.’s Compl.
12 See Doc. 8, Pl.’s Mot. to Expedite Proceedings
See Doc. 10, Def.’s Mot. to Dismiss; Doc. 11, Def.’s Resp.
to Pl.’s Mot. to Expedite Proceedings.

App.5a

Approximately two weeks later, on January 3, 2013,
Plaintiff filed objections to Defendant’s pending
motion, as well as a document entitled “Motion for
Revision Based on Clear and Unmistakable
Error.”14 Based on Plaintiffs assertion that the
aforementioned document constitutes the sole
exhibit to her objections to Defendant’s pending
motion, in conjunction with the contents of the
document, the court construes this document as an
exhibit to her objections to Defendant’s motion, rather
than as a motion.

15

Also on January 3, 2013, Plaintiff

filed a motion for summary judgment.

16

14 See Doc. 13, Pl.’s Objs. to Def.’s Mot. to Dismiss; Doc.
14, Pl.’s Mot. for Revision.
15

See generally Doc. 14, Pl.’s Mot. for Revision; see also
Doc. 13, Pl.’s Objs. to Def.’s Mot. to Dismiss, p. 7.
16

Doc. 15. Pl.’s Mot, for Summ, J.

App.6a

II. Dismissal Standard
Defendant

moves

to

dismiss

Plaintiff s

complaint for lack of subject matter jurisdiction under
Federal Rule of Civil Procedure (“Rule”) 12(b)(1). The
court should decide a Rule 12(b)(1) motion before
addressing any attack on the merits.

Ramming v.

United States. 281 F.3d 158, 161 (5th Cir. 2001).
A dismissal of a complaint pursuant to Rule 12(b)(1)
“is not a determination of the merits and does not
prevent the plaintiff from pursuing a claim in a court
that does have proper jurisdiction.” IcL at 161.
Dismissal of an action is appropriate whenever the
court lacks subject matter jurisdiction. Fed. R. Civ. P.
12(b)(1);

12(h)(3).

Federal courts

may

exercise

jurisdiction over cases only as authorized by the
United States Constitution and the jurisdictional
statutes. Kokkonen v. Guardian Life Ins. Co. of Am..
511 U.S. 375, 377 (1994); see also Howerv v. Allstate
Ins. Co.. 243 F.3d 912, 916 (5th Cir. 2001). Article III

App.7a

of the United States Constitution confines federal
court jurisdiction to cases and controversies and, thus,
requires that a plaintiff have standing to bring suit.
See Time Warner Cable. Inc, v. Hudson. 667 F.3d 630,
635 (5^ Cir. 2012). The party asserting jurisdiction
bears the burden of overcoming the presumption
that the cause falls outside the court’s limited
jurisdiction. Kokkonen. 511 U.S. at 377; see also Time
Warner Cable. Inc.. 667 F.3d at 635.
III. Analysis
In support of its motion to dismiss Plaintiffs
complaint on the grounds that the court lacks subject
matter jurisdiction to adjudicate the case, Defendant
argues that: (l) the doctrine of sovereign immunity
precludes Plaintiffs claims; and (2) judicial review of
VA benefits decisions is limited by statute. The court
considers the merits of Defendant’s arguments.
The

FTCA

provides

an

administrative

procedure for tort claims brought against the Federal

App.8a

Government or any of its agencies, and provides the
sole remedy for such claims arising from actions taken
by federal employees within the scope of their
employment. 28 U.S.C. §§ 2672, 2679.
FTCA claim,

Absent an

the court retains subject matter

jurisdiction to consider a plaintiffs claims only where
sovereign immunity has been waived.

See Price v.

United States. 69 F.3d 46, 49 (5^ Cir. 1995) (“the
United States is immune from suit unless it has
waived its immunity and consented to suit.”). The
court construes waivers of sovereign immunity in
favor of the sovereign.

See Jeanmarie v. United

States. 242 F.3d 600, 604 (5^ Cir. 2001) (quoting
McMahon v. United States. 342 U.S. 25, 27 (1951)).
Here, although Plaintiff characterizes her
claim as negligence, she does not allege harm from a
negligent act. Rather, Plaintiff takes issue with the
VA’s decisions—the personal effects of which Plaintiff
claims as harm—regarding the 2003 effective date of

App.9a

her benefits, and thereby seeks review of one or more
of the VA’sdecisions. With regard to lawsuits seeking
review of VA decisions or procedures, the United
States has waived its sovereign immunity and
consented to suit “in the United States Court of
Appeals for Veterans Claims, the United States Court
of Appeals for the Federal Circuit, and the United
States Supreme Court.” Carney v. Jane. 2005 WL
2277490, at *1, (S.D. Tex. Sep. 16, 2005) (citing In re
Russell. 155 F.3d 1012, 1012-13 (8th
(unpublished).

Cir. 1998))

App.lOa

Specifically, this limited waiver of sovereign
immunity as to VA decisions

and procedures is

provided

Judicial Review Act

by

the

Veterans

(“VJRA”),17 enacted in 1988. See Zuspann v. Brown.
60 F.3d 1156, 1158 (5^ Cir. 1995); see also Bates v.
Nicholson. 398 F.2d 1355, 1363-64 (Fed. Cir. 2005).
The enactment of the VJRA “clearly announced the
intent of Congress to preclude review of benefits
determinations in federal district courts.” Zuspann.
60 F.3d at 1158.
Under the VJRA, plaintiffs

are

provided

with

exclusive procedures for seeking judicial review of
decisions made by the VA. See id.; see also Oliver v.
Kelly, slip op., No. 12-CV-642, 2012 WL 4207301, at
*3 (W.D. La. Aug. 31, 2012) (quoting Zuspann. 60 F.3d
at 1158). In particular, “[t]he VJRA allows veterans to
appeal benefits determinations to the Board of
Veterans’ Appeals.” Zuspann, 60 F.3d at 1158-59; see
38 U.S.C. § 7104.

17 38 U.S.C. §§ 7251 et seq.

App.lla

The

Court of Veterans Appeals has

exclusive

jurisdiction to review the decisions of the Board of
Veterans’ Appeals, while the United States Court of
Appeals for the Federal Circuit has exclusive
jurisdiction to review the Court of Veterans Appeals.
See Zusnann. 60 F.3d at 11591 38 U.S.C. §§ 7252,
7292.
Moreover, 38 U.S.C. § 511(a) limits judicial review of
certain determinations of veterans’ benefits^18
The Secretary shall decide all questions of law and
fact necessary to a decision by the Secretary under a
law that affects the provision of benefits by the
Secretary to veterans or the dependents or survivors
of veterans. Subject to subsection (b), the decision of
the Secretary as to any such question shall be final
and conclusive and may not be reviewed by any other
official or by any court, whether by an action in the
nature of mandamus orotherwise.

18

Plaintiff argues that because this case is covered
by 38 U.S.C. § 1975, 38 U.S.C. § 511(b) applies to exclude
this case from the provision set forth in 38 U.S.C. 511(a).
The court disagrees. Section 1975 of Title 38 concerns
“Servicemembers’ Group Life Insurance,” which is not at
issue in the present case. See 38 U.S.C. § 1975.

App.l2a

The court thus finds that both the VJRA and 38 U.S.C.
§ 511(a) preclude the court from reviewing Plaintiffs
claims regarding the VA’s determination of the
effective date of her

benefits. Given the above, in

conjunction with Plaintiffs failure

to allege an

applicable waiver of sovereign immunity, the court
finds that it lacks subject matter jurisdiction over
Plaintiffs action.
Accordingly, the court RECOMMENDS that
Defendant’s motion to dismiss be GRANTED.
IV. Conclusion
Based

on

the

foregoing,

the

court

RECOMMENDS that Defendant’s Motion to Dismiss
be

GRANTED.

If

this

memorandum

and

recommendation is adopted, Plaintiffs motion to
expedite proceedings and Plaintiffs motion for
summary judgment will be MOOT.
The

Clerk

shall

send

copies

of

this

Memorandum and Recommendation to the respective
parties who have fourteen days from the receipt

App.l3a

thereof to file written objections thereto pursuant to
Federal Rule of Civil Procedure 72(b) and General
Order 2002-13. Failure to file written objections
within the time period mentioned shall bar an
aggrieved party from attacking the factual findings
and legal conclusions on appeal.
The original of any written objections shall be
filed

with

the

United

States

District

Clerk

electronically. Copies of such objections shall be
mailed to opposing parties and to the chambers of the
undersigned, 515 Rusk, Suite 7019, Houston, Texas
77002.

SIGNED in Houston, Texas, this 14th day of
January, 2013.

App.l4a

U.S. DISTRICT COURT ORDER ADOPT
MAGISTRATE JUDGE’S MEMORANDUM AND
RECOMMENDATIONS (4:i2-CV-3093)
(February 11, 2013)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE M. MICHAEL,
Plaintiff
CIVIL ACTION
No. H-12-0393
v.
UNITED STATES OF AMERICA
Defendant
ORDER ADOPTING MAGISTRATE JUDGE’S
MEMORANDUM &RECOMMENDATION
Pending before the court is the Magistrate Judge’s
&
Memorandum
Recommendation
(Dkt. 18)
recommending that the United States of America’s
(“United States”) motion to dismiss (Dkt. 10) be
granted. Having reviewed the Memorandum &
Recommendation, the relevant documents within the
record, plaintiff Stephanie M. Michael’s (“plaintiff’)
objections (Dkts. 19, 21), and the applicable law, the
court OVERRULES plaintiffs objections and
ADOPTS the Magistrate Judge’s Memorandum &
Recommendation.
Plaintiff, a veteran with claims of anxiety and
depression, contends that this court has jurisdiction to
review the Department of Veteran Affairs’s (“VA”)

App.l5a

benefits determinations dating back to 1993, which
she claims were negligently mishandled and caused
her to be deprived of VA benefits in violation of the
Fifth Amendment’s Due Process Clause. See Dkt. 18
at 3. After finding that the plaintiffs complaint does
not state a plausible claim for negligence, and instead
seeks review of the underlying benefits decisions, the
Magistrate Judge recommended dismissal of
plaintiffs claims for lack of subject-matter jurisdiction
in the Southern District of Texas. Id. at 6-8.
The court has reviewed the law regarding the
government’s narrow waiver of sovereign immunity
regarding VA decisions, and the court agrees that
plaintiff does not have the right to seek judicial review
in this district court under the Federal Tort Claims
Act. Rather, her claims can only be heard, under the
Veterans Judicial Review Act of 1988 (“VJRA”), in the
Board of Veterans’ Appeals, the United States Court
of Appeals for Veterans Claims, the United States
Court of Appeals for the Federal Circuit, and the
United States Supreme Court. 38 U.S.C. § 511(a);
Zuspann v. Brown, 60 F.3d 1156, 1158-59 (5th Cir.
1995) (explaining that the VJRA “announced the
intent of Congress to preclude review of benefits
determinations in federal district courts”); King v.
United States, No. l-ll-cv-224, 2012 WL 4510047, at
*3 (S.D. Miss. Sept. 28, 2012) (“The Court finds that §
511(a) forecloses it from exercising jurisdiction over
King’s claims in this action because underlying
[King’s] claim [s] is an allegation that the VA
unjustifiably denied him a veterans’ benefit.”)
(internal quotation marks omitted).
In short, plaintiffs claims for relief, although alleged
to arise from the VA’s negligence, are inextricably

App.l6a

intertwined with a review of the VA’s benefits
decisions, which deprives this court of subject-matter
jurisdiction.
The United States’ motion to dismiss (Dkt. 10) is
GRANTED, and plaintiffs claims are DISMISSED
WITHOUT PREJUDICE to refiling in a court of
competent jurisdiction. Plaintiffs motion to expedite
proceedings (Dkt. 8), motion for revision based on
clear and unmistakable error (Dkt. 14), and motion for
summary judgment (Dkt. 15) are DENIED AS MOOT.
It is so ORDERED.
Signed at Houston, Texas on February 11, 2013.

Is/ Gray H. Miller
Gray H. Miller
United States District Judge

App.l7a

VA FINAL DENIAL ADMINISTRATIVE TORT
CLAIM (28 U.S.C. 2675 NOTICE)
(March 7, 2014)
DEPARTMENT OF VETERANS AFFAIRS
Office of Regional Counsel
6900 Almeda Road Houston, TX 77030
Andree Boudreaux
Regional Counsel
(713) 383-2784
(713) 383-2783
In Reply Refer To: 362/02

March 7, 2014
Via CMRRR 91 7199 9991 7030 7636 5133
Ms. Stephanie Michael
13480 S. Thorntree Dr. #802
Houston, TX 77015
Re^
Claimant:

Administrative Tort Claim
Ms. Stephanie Michael

Dear Ms. Michael:
This office has now completed our review of the
“Claim for Damage, Injury or Death” (Standard Form
95) and six page attachment submitted by you to the
Department of Veterans Affairs (VA) on September
13, 2013, seeking $10,200,000.00 in damages. In this
submission, you allege that you have been wrongfully
deprived of a retroactive VA benefit payment covering

App.l8a

the period from 1993 to 2003. We again take the
opportunity to inform you (as we did in our letter of
September 5, 2012 related to your last SF-95 filing)
that the issues which you have raised in your
submission —VA benefit matters—cannot by law be
considered under the Federal Tort Claims Act (FTCA).
Thus, your submission constitutes a non-payable
claim which cannot be considered under the FTCA.
Accordingly, your claim is hereby denied.
If you are dissatisfied with this decision, you may
file a request for reconsideration of this claim with VA
General Counsel by any of the following means: (l)
you may mail your request to the Department of
Veterans Affairs, General Counsel (022B), 810
Vermont Avenue, N.W., Washington, DC 20420; (2)
you may file your request by data facsimile (fax) to
(202) 273-6385; or (3) you may email your request to
OGC.torts@mail.va.gov. To be timely filed, VA must
receive this request prior to the expiration of six
months from the date of the mailing of this final
denial. Upon filing such a request for reconsideration,
VA shall have 6 months from the date of that filing in
which to make final disposition of the claim, and his
option to file suit in an appropriate U.S. District Court
under 28 U.S.C. 2675(a) shall not accrue until 6
months after filing of any such request for
reconsideration (28 C.F.R. Section 14.9).
In the alternative, if you are dissatisfied with the
action taken on this claim, you may file suit in
accordance with the Federal Tort Claims Act, sections
1346(b) and 2671-2680, title 28, United States Code,
which provides that a tort claim that is
administratively denied may be presented to a
Federal district court for judicial consideration. Such

App.l9a

a suit must be initiated within 6 months after the date
of the mailing of this notice of final denial as shown by
the date of this letter (section 2401(b), title 28, United
States Code). If you do initiate such a suit, you are
further advised that the proper party defendant is the
United States, not the Department of Veterans Affairs
(28 U.S.C. §§ 1346(b) and 2671-2680).
Please note that FTCA claims are governed by a
combination of Federal and state laws. Some state
laws may limit or bar a claim or lawsuit. VA attorneys
handling FTCA claims work for the Federal
government and cannot provide advice regarding the
impact of state laws or state filing requirements.
Sincerely,
Is/ Andree Boudreaux
Andree Boudreaux
Regional Counsel
AB/dhl

App.20a

(FEBRUARY 3. 2015) RES JUDICATA DISMISSAL
ORDER OF THE SOUTHERN DISTRICT COURT
OF TEXAS
UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF TEXAS HOUSTON DIVISION
STEPHANIE MICHAEL,
Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant
Civil Action H-14-2421
Before: Stephen Wm SMITH United States
Magistrate Judge
This case regarding denial of Veterans Admin­
istration benefits is before the court on the
Government’s motion to dismiss (Dkt. 7). The
Government contends that this action must be
dismissed based on res judicata and lack of subject
matter jurisdiction. The motion to dismiss is granted.
Michael’s motion for relief (Dkt. 8), and motion to
strike and compel discovery (Dkt. 17) are denied.
Michael’s original complaint alleges she “has been
deprived of rights and property due to the negligent
actions of commission and omission by several VA
employees over a period of 20 years to present.” Dkt. 1
at 1. Michael previously asserted her claims in
Stephanie M. Michael v. United States ofAmerica,
Civil Action No. 4:12-cv-3093.1 The district court
dismissed Civil Action 12-cv-3093 for lack of subject

App.21a

matter jurisdiction because the Court of Veterans
Appeals has exclusive jurisdiction to review the
decisions of the Board of Veterans’ Appeals, and the
Court of Appeals for the Federal Circuit has exclusive
jurisdiction to review the Court of Veterans Appeals.
Stephanie M. Michael v. United States ofAmerica,
Civil Action No. 4:12-cv-3093, slip op. at 2 (Feb. 11
2013) (Dkt. 7-2). Michael did not appeal.
The doctrine of res judicata bars Michael’s litigation
of her claims in this court. The elements of res judicata
are: (l) the parties are identical; (2) the prior
judgment was rendered by a court of competent
jurisdiction; (3) the prior action was concluded by a
final judgment on the merits; and (4) the same claim
or cause of action was involved in both actions. Oreck
v. Direct, LLC v. Dyson, Inc., 560 F.3d 398, 401 (5th
Cir. 2009). All elements of res judicata are present
here. While the prior ruling was without prejudice to
refiling in a court of competent jurisdiction, its
jurisdictional determination is a final order with res
judicata effect. Ins. Corp. of Ireland, Ltd. v.
Camagnie desBauxites de Guinee, 456 U.S. 694, 702
n.9 (1982); Comer v. Murphy Oil U.S.A., Inc., 718
F.3d 460, 469 (5th Cir. 2013).
1 To the extent Michael has asserted claims under 42 U.S.C.
§§ 1983, 1985 that were not asserted in the prior action, they
must be dismissed because suits against the United States
brought under civil rights statutes are barred by sovereign
immunity. Affiliated Professional Home Health Care
Agency v. Shalala, 164 F.3d 282, 286 (5th Cir. 1999).

App.22a

Michael appears to argue that the district court’s
dismissal order in 12-cv-3093 is a void judgment. A
judgment may be collaterally attacked if it is void for
lack of jurisdiction. Jacuzzi v. Pimienta, 762 F.3d
419, 420 (5th Cir. 2014). But it is Michael’s position
that the district court has jurisdiction to review her
claims. See Dkt. 8 at 3, *[f 7. Michael provides no basis
for concluding that the final order dismissing Civil
Action No. 12-cv-3093 is void.
To the extent Michael is arguing that this court
should hear her case because the decisions of the
Board of Veterans Appeals, Court of Veterans
Appeals, and/or United States Court of Appeals for
Federal Circuit are void, that in no way endows this
court with jurisdiction over her claims for veterans
benefits.
For these reasons, the Government’s motion to
dismiss (Dkt. 7) is granted. This action is dismissed
with prejudice to refiling in the United States District
Courts. This is a final order.
Signed at Houston, Texas on February 3, 2015.
/s/ Stephen Wm. Smith________
United States Magistrate Judge

App.23a

(MARCH 2, 2015) ORDER OF DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS HOUSTON
DIVISION
STEPHANIE MICHAEL,
Plaintiff,
v.
UNITED STATES OF AMERICA,
Defendant.
Civil Action H-14-2421 Before: Stephen Wm. SMITH
United States Magistrate Judge
Plaintiffs petition of interlocutory appeal (Dkt.
20) is terminated as moot. This court issued a final
dismissal order (Dkt. 19). The dismissal order is not
interlocutory. There is no need to file a petition for
leave to file an appeal.
Plaintiffs motion for reconsideration (Dkt. 21) is
denied. Federal Rule of Civil Procedure 59(e) is
properly invoked “to correct manifest errors of law or
fact or to present newly discovered evidence.” Templet
v. Hydrochem, In 479 (5th Cir. 2004). A motion for
reconsideration is “not the proper vehicle for
rehashing evidence, legal theories, or arguments that
could have been offered or raised before the entry of
judgment.” Id. Plaintiff has not met her burden to
show any basis for reconsideration.
Signed at Houston, Texas on March 2, 2015.
I si Stephen Wm Smith
United States Magistrate Judge

App.24a

U.S. COURT OF APPEALS FOR THE FIFTH
CIRCUIT PER CURIAM ORDER
(September 17, 2015)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 15-20108
Summary Calendar
STEPHANIE MICHAEL,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:14-CV-2421
Before KING, CLEMENT, OWEN, Circuit Judges.
PER CURIAM*
Stephanie Michael, a veteran of the United States
Marine Corps, brought claims under the Federal Tort
Claims Act and 42 U.S.C. 1983 and 1985 against the
Government alleging that the Department of
Veterans Affairs deprived her of her right to benefits.
*Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not
precedent except under the limited circumstances set forth
inn 5TH CIR. 47.5.4

App.25a

The Government filed motion to dismiss. The district
court granted the Government’s motion and dismissed
the action for reasons of res judicata and sovereign
immunity. We affirm.
We review the res judicata effect of a prior judgment
and the existence of sovereign immunity de novo.1
This Court has held:
The preclusive effect of a prior court judgment
is controlled by federal res judicata rules. Res
judicata is appropriate if: l) the parties to both
actions are identical (or at least in privity); 2)
the judgment in the first action is rendered by
a court of competent jurisdiction; 3) the first
merits; and 4) the same claim or cause of
action is involved in both suits.2
“It has long been the rule that principles of res judicata
apply to jurisdictional determinations—both subject
matter and personal.3

1 Oreck Direct,LLC v. Dyson, Inc., 560 F.3d 398, 40l(5th
Cir. 2009); Rodriguez v. Transnave Inc., 8 F.3d 284,
287(5th Cir. 1993).
2 Ellis v. Amex Life Ins. Co., 211 F.3d 935, 937 (5th Cir.
2000)(citations omitted).
3 Ins. Corp. oflr. v. Compagnie des Baxites de Guinee, 456
U.S. 694, 702 n.9 (1982); accord Comer v. Murphy Oil USA,
Inc. 718 F. 3d 460, 469 (5th Cir. 2013).

App.26a

Michael previously brought suit against the
Government in the Southern District of Texas, which
dismissed the case without prejudice for lack of
subject matter jurisdiction.4 Michael’s claims are the
same as her prior lawsuit and attack the processing
and outcome of her application for veterans’ benefits.
Although Michael added a claim under 1983 and 1985
in the present case, such claims are precluded by
sovereign immunity.5 The district court dismissed the
present action “with prejudice to refiling in the United
States District Courts.”

4 Order Adopting Magistrate Judge’s Memorandum
and Recommendation, Michael v. United States, No.
4:l2-cv-03093(S.D. Tex. Feb. 11, 2013), ECF No.22;
Final Judgment, Michael v. United States, No. 4*12cv-03093(S.D. Feb. 11, 2013), ECF No. 23, R at 32-42.
5 Affiliated Prof1 Home Health Care Agency v. Shalala, 164
F.3d 282, 286(5th Cir.1999) (This Court has long
recognized that suits against the United States brought
under the civil rights statutes are barred by sovereign
immunity.’’(citing Unimex, Inc. v. U.S. Dep’t of Hous. &
Urban Dev., 594 F.2d 1060, 106l(5th Cir. 1979).

App.27a

The Veterans Judicial Review Act “created an
exclusive review procedure by which veterans may
resolve their disagreements with the Department of
Veterans Affairs.” 6 A veteran may appeal a benefits
determination to the Board of Veterans Appeals, and
the Court of Veterans Appeals has exclusive
jurisdiction to review the Board’s decision.7 The
Federal Circuit Court of Appeals has exclusive
jurisdiction to review the decisions of the Court of
Veterans Appeals.8 Because Michael “challenges the
VA’s decision to deny [her] benefits, the district Court
does not have jurisdiction” over her complaint.9

6 Zuspann v. Brown, 60 F.3d 1156, 1158 (5th Cir. 1995)
7 Id. at 1158-59.
8 Id. at 1159.
9 Id. at 1158.

App.28a

(AUGUST 8. 2016) UNITED STATES SUPREME
COURT CERIORARIREHEARING DENIED
Supreme Court of the United States Office of the
Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479.3011
August 8, 2016
Ms. Stephanie Michael
P.O. Box 96364
Houston, TX 77213
Re: Stephanie Michael v. United States No. 15-8283
Dear Ms. Michael:
The Court today entered the following order in the
above-entitled case:
The petition for rehearing is denied.
Sincerely,
Is/ Scott S. Harris
Scott S. Harris, Clerk

App.29a

U.S. COURT OF APPEALS FOR VETERANS
CLAIMS-LETTER FROM CLERK
(September 1, 2016)
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
625Indiana Avenue NW, Suite 900
Washington, DC 20004
September 1, 2016
Ms. Stephanie Michael
P.O. Box 96364
Houston, TX 77213
Dear Ms. MichaelThis is in response to your correspondence received
by the Court on August 29, 2016.
The Court can only act within the authority given it
by Congress which is limited to the review of final
decisions of the Board of Veterans’ Appeals (Board)
that are adverse to the veteran and which the veteran
then appeals to the Court within 120 days of that final
decision. I do not find that you have a case at this
Court. You may want to redirect your inquiry to your
local regional office or the Board. Their contact
information is^
Board of Veterans Appeals
Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420
800-923-8387
Sincerely,
/s/Anne P. Stygles
Anne P. Stygles
Chief Deputy Clerk of Operations

App.30a

(DECEMBER 28. 2016) U.S. COURT OF APPEALS
FOR VETERANS CLAIMS: PETITION
DECLARATORY JUDGMENT DENIED
NO. 16-3356
STEPHANIE MICHAEL, PETITIONER,
V.
ROBERT A. MCDONALD,
SECRETARY OF VETERANS AFFAIRS,
RESPONDENT.
Before GREENBERG, Judge. ORDER
Note■ Pursuant to U.S. Vet. App. R. 30(a), this action
may not be cited as precedent.
On September 29, 2016, the pro se petitioner filed a
petition seeking a declaratory judgment. On October
11, 2016, the petitioner filed a motion to withdraw her
petition. On October 18, 2016, the Court granted the
petitioner's motion to withdraw. On November 9,2016,
judgment issued. On November 10, 2016, the
appellant filed a motion to stay the issuance of
mandate and an amended petition for relief in the
form of a declaratory judgment. For the purposes of
addressing the request of the petitioner, the Court will
revoke the November 9 judgment in this matter and
address the petitioner's amended petition.
The Court concludes that it must deny the petitioner's
petition because the Court does not have the
jurisdiction to issue declaratory judgments. This
Court
adheres
to
the
case -or- controversy
jurisdictional constraints provided for in Article III of
the U.S. Constitution. See Mokal v. Derwinski, 1
Vet.App. 12, 13-15 (1990). Because there is no case or
controversy to attach to, the Court has no choice but
to deny the requested relief of the petitioner.

App.31a

On consideration of the foregoing, it is
ORDERED that judgment is REVOKED. It is further
ORDERED that the Court's stamp grant of the
appellant's motion to withdraw her petition is
REVOKED. It is further
ORDERED that the petitioner's amended petition for
relief in the form of a declaratory judgment is denied.
It is further
ORDERED that the motion to stay the issue of
mandate is DISMISSED as moot.
DATED: December 28, 2016
BY THE COURT: WILLIAM S. GREENBERG, Judge
Copies to:
Stephanie Michael
VA General Counsel (027)

App.32a

(JUNE 12. 2017) UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT.
AFFIRMED DECLARATORY JUDGMENT DENIAL
STEPHANIE MICHAEL, Claim ant-Appellant
v.
DAVID J. SHULKIN, SECRETARY OF VETERANS
AFFAIRS, Respondent-Appellee
2017-1569
Appeal from the United States Court of Appeals for
Veterans Claims in No. 16-3356, Judge William
Greenberg. Decided: June 12, 2017 STEPHANIE
MICHAEL, Houston, TX, pro se. 1MARIANA
TERESA ACEVEDO, Commercial Litigation Branch,
Civil Division, United States Department of Justice,
Washington, DC, for respondent-appellee. Also
represented by CHAD A. READLER, ROBERT E.
KIRSCHMAN, JR., ELIZABETH M. HOSFORD; Y.
KEN LEE, DEREK SCADDEN, Office of General
Counsel, United States Department of Veterans
Affairs, Washington, DC.
Before LOURIE, MOORE, and O'MALLEY, Circuit
Judges. PER CURIAM.
Stephanie Michael seeks review of the December 28,
2016 decision of the Court of Appeals for Veterans
Claims ("Veterans Court") denying her petition for
relief in the form of declaratory judgment. Michael v.
McDonald\ No. 16-3356, 2016 WL 7448386 (Vet. App.
Dec. 28, 2016). For the following reasons, we affirm
the decision of the Veterans Court.

App.33a

BACKGROUND
Ms. Michael is an honorably-discharged disabled vet­
eran of the United States Marine Corps. In October
2012, she. filed a complaint in the United States
District Court for the Southern District of Texas,
alleging that the Department of Veterans Affairs (the
"VA") acted negli-gently with respect to her benefits
determinations, in violation of the Federal Tort
Claims Act (the "FTCA"). Michael v. United States,
No. 12-cv-03093, 2013 U.S. Dist. LEXIS 189859 (S.D.
Tex. Feb. 11, 2013). "After finding that [Ms. Michael]'s
complaint d[id] not state a plausible claim for
negligence, and instead s [ought] review of the
underlying benefits decisions," the district court dis­
missed her complaint for lack of jurisdiction. Id. at
*1_2 (citing 38 U.S.C. § 5 11(a)).
On September 13, 2013, Ms. Michael submitted a
Standard Form 95—"Claim for Damage, Injury, or
Death"—to the VA, alleging wrongful deprivation of
VA benefit payments covering the period from 1993 to
2003 and totaling $10.2 million in damages, all in
violation of the FTCA. The VA denied that claim via
letter, stating: "[T]he issues which you have raised in
your submission—VA Benefit matters—cannot by law
be considered under the [FTCA]." J.A. 15.
Ms. Michael again filed suit in the Southern District
of Texas, alleging that she had "been deprived of
rights and property due to the negligent actions of
commission and omission by several VA employees
over a period of 20 years to present." Michael v. United
States, No. 14-2421, 2015 WL 11123316, at *1 (S.D.
Tex. Feb. 3, 2015). On February 3, 2015, the district
court granted the govern-ment's motion to dismiss for

App.34a

lack of subject matter juris-diction, relying on res
judicata due to the previous 2013 dismissal order. Id.
at *1_2. Ms. Michael timely ap-pealed this decision to
the United States Court of Appeals for the Fifth
Circuit, which, on September 17, 2015, affirmed the
district court's judgment. Michael v. United States,
616 F. App'x 146 (5th Cir. 2015). On May 16, 2016, the
Supreme Court of the United States denied Ms.
Michael's subsequent petition for writ of certiorari.
Michael v. United States, 136 S. Ct. 2013 (2016).
On September 29, 2016, Ms. Michael filed a petition
with the Veterans Court seeking a declaratory
judgment, which she later withdrew. Michael, 2016
WL 7448386, at *1. On November 9, 2016, judgment
issued. Id. On November 10, 2016, Ms. Michael filed a
motion to stay the issuance of mandate and an
amended petition for relief in the form of a declaratory
judgment. Id. Specifically, her motion appears to have
requested a declaratory judgment that the Veterans
Court has jurisdiction to hear her FTCA claims. The
Veterans Court denied Ms. Michael's petition,
"because the [Veterans] Court does not have the
jurisdiction to issue declaratory judgments.... [It] ad­
heres to the case-or-controversy jurisdictional
constraints provided for in Article III of the U.S.
Constitution." Id. (citing Mokal v. Derwinshi, 1 Vet.
App. 12, 13-15 (1990)). Ms. Michael timely appealed to
this court.
DISCUSSION
Our ability to review a decision of the Veterans Court
is limited. We may review "the validity of a decision of
the [Veterans] Court on a rule of law or of any statute
or regulation. . . or any interpretation thereof (other
than a determination as to a factual matter) that was

App.35a

relied on by the [Veterans] Court in making the
decision." 38 U.S.C. § 7292(a) (2012). We have
exclusive jurisdiction "to review and decide any
challenge to the validity of any statute or regulation
or any interpretation thereof brought under [38 U.S.C.
§ 7292], and to interpret constitutional and statutory
provisions, to the extent presented and necessary to a
decision." Id. § 7292(c). Except to the extent that an
appeal presents a constitutional issue, however, we
"may not review (A) a challenge to a factual
determination, or (B) a challenge to a law or
regulation as applied to the facts of a particular case."
Id. § 7292(d)(2).
In her informal brief, Ms. Michael appears to raise
essentially two separate arguments- (l) the Veterans
Court erred by denying her request for declaratory
judgment; and (2) the district court and Fifth Circuit
erred in dismissing her complaint(s). Regarding the
Veterans Court's decision, Ms. Michael argues that
the Veterans Court "mischaracterize[ed]" her petition
"as a petition for extraordinary relief—i.e.,
"mandamus"—instead of addressing it as a petition
for "declaratory relief under 28 U.S.C. 2201."
Appellant Br. at 1-5. Had the Veterans Court done so,
she argues^ "(l) it would have identified the case and
controversy relevant [to] the Article III and statutory
requirements. . . concluded to be nonexistent by the
[Veterans Court], and; (2) could have issued a decision
consistent with its existing procedures and applicable
law . . . ." Id. at 5.
We decline to vacate
The Veterans Court
petition as one for
mandamus or other

the Veterans Court's decision.
explicitly read Ms. Michael's
"declaratory judgment," not
extraordinary relief. Michael,

App.36a

2016 WL 7448386, at *1. Ms. Michael's arguments on
appeal indicate that such a reading was correct.
Taking her petition as one for declaratory judgment,
the Veterans Court did not err in denying it, but does
appear to have misstated the relevant law. The
Veterans Court described its reasoning for denial as
follows^
The Court concludes that it must deny the peti­
tioner's petition because the Court does not have the
jurisdiction to issue declaratory judgments. This
Court adheres to the case-or-controversy ju­
risdictional constraints provided for in Article III of
the U.S. Constitution. See Mokal v. Derwinski, 1 Vet.
App. 12, 13-15 (1990). Because there is no case or
controversy to attach to, the Court has no choice but
to deny the requested relief of the petitioner. Michael,
2016 WL 7448386, at *1.
The most straightforward reading of this order
suggests that, because the Veterans Court only
entertains actual cases and controversies, it cannot
issue declaratory judgments—as if the two were
mutually exclusive. But 28 U.S.C. § 2201 only permits
relief "[i]n a case of actual controversy" in the first
place—a phrase that "refers to the type of 'Cases' and
'Controversies' that are justiciable under Article III."
Medlrninuue, Inc. v. Genentech, Inc., 549 U.S. 118,
127 (2007). Indeed, by the Veterans Court's reasoning,
no Article III court could entertain petitions for
declaratory judgments.
Rather, the Veterans Court cannot entertain petitions
for declaratory judgments because it "is not 'a court of
the United States' within the meaning of [28 U.S.C. §
2201] and cannot derive any powers therefrom." In re
i

App.37a

Wick, 40 F.3d 367, 372 (Fed. Cir. 1994) (citing Nagler
v. Derwinski, 1 Vet. App. 297, 306 (1991)). As the
court observed in Wick, the term "court of the United
States" is defined by statute as any court created by
Act of Congress whose judges "are entitled to hold
office during good behavior." Id. (quoting 28 U.S.C. §
451). Veterans court judges, on the other hand, are
appointed by the President to serve a term of fifteen
years. Id. (citing 38 U.S.C. § 7523). Accordingly, the
Veterans Court properly denied Ms. Michael's petition
for declaratory judgment as not within the scope of its
authority.
Regarding the district court and Fifth Circuit, Ms.
Michael's arguments are less scrutable. She states, in
relevant part: The orders from U.S. Supreme Court;
U.S. Court of Appeals for the Fifth Circuit; and the
U.S. Dis-trict Court for the Southern District of Texas
at issue judicially imposing Bivens claim remedy
provided by Congress for exclusive judicial review of
final Board of Veterans Appeals decisions of the
Secretary within the Veterans Judicial Review Act of
1988 thereby conferring subject matter jurisdiction
upon the U.S. Court of Appeals for Vet-erans Claims
is are void. Instead of is based on the merits of the (l)
Government's conclusions from review prohibited by
38 USC 511 of the final and conclusive decisions of the
Secretary in present case. Appellant Br. at 8-9.
Regardless of the substance of her arguments, Ms.
Michael does not allege any of the limited bases on
which this court would have jurisdiction to review the
decision of the district court. See 28 U.S.C. § 1295.
And she has not—indeed cannot—cite authority
under which this court is able to review the decision-

App.38a

making of the Fifth Circuit or the Supreme Court in
this context.
CONCLUSION
After full review of the
consideration, we affirm.

record

AFFIRMED

and

careful

App.39a

CONSTITUTIONAL AND LEGISLATIVE
PROVISIONS
U.S. CONSTITUTION
Art.I.,§l
All legislative powers herein granted shall be vested
in a Congress of the United States, which shall consist
of a Senate and House of Representatives.
Art.I, §8
“To constitute tribunals inferior to the Supreme
Court” and “To make all laws which shall be
necessary and proper for carrying into execution the
foregoing powers, and all other powers vested by this
Constitution in the government of the United States,
or in any department or officer thereof.”
Art.II,§l
The executive power shall be vested in a President of
the United States of America. He shall hold his office
during the term of four years, and, together with the
Vice President, chosen for the same term, be elected,
as followsEach state shall appoint, in such manner as the
Legislature thereof may direct, a number of electors,
equal to the whole number of Senators and
Representatives to which the State may be entitled in
the Congress^ but no Senator or Representative, or
person holding an office of trust or profit under the
United States, shall be appointed an elector.

App.40a

Art.II.§3
He shall from time to time give to the Congress
information of the state of the union, and recommend
to their consideration such measures as he shall judge
necessary and expedient; he may, on extraordinary
occasions, convene both Houses, or either of them, and
in case of disagreement between them, with respect to
the time of adjournment, he may adjourn them to such
time as he shall think proper; he shall receive
ambassadors and other public ministers; he shall take
care that the laws be faithfully executed, and shall
commission all the officers of the United States.
Art. III,§1
The judicial power of the United States shall be vested
in one Supreme Court, and in such inferior courts as
the Congress may from time to time ordain and
establish. The judges, both of the supreme and inferior
courts, shall hold their offices during good behaviour,
and shall, at stated times, receive for their services, a
compensation, which shall not be diminished during
their continuance in office.
Art. Ill, §2
The judicial power shall extend to all cases, in law and
equity, arising under this Constitution, the laws of the
United States, and treaties made, or which shall be
made, under their authority;"to all cases affecting
ambassadors, other public ministers and consulsr-to
all cases of admiralty and maritime jurisdiction; "to
controversies to which the United States shall be a
party;"to controversies between two or more states;-between a state and citizens of another state;"
between citizens of different states;--between citizens

App.41a

of the same state claiming lands under grants of
different states, and between a state, or the citizens
thereof, and foreign states, citizens or subjects.
In all cases affecting ambassadors, other public
ministers and consuls, and those in which a state shall
be party, the Supreme Court shall have original
jurisdiction. In all the other cases before mentioned,
the Supreme Court shall have appellate jurisdiction,
both as to law and fact, with such exceptions, and
under such regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment,
shall be by jury; and such trial shall be held in the
state where the said crimes shall have been
committed; but when not committed within any state,
the trial shall be at such place or places as the
Congress may by law have directed.
Fifth Amendment, Due Process Clause
No person shall be...deprived of life, liberty, or
property, without due process of law.
STATUTES
5 U.S.C. 551, et seq. Administrative Procedure Act
5 U.S.C. 551- Definitions
(l)“agency” means each authority of the Government
of the United States, whether or not it is within or
subject to review by another agency, but does not
include—
(A) the Congress;
(B) the courts of the United States;
(C) the governments of the territories or possessions
of the United States;
(D) the government of the District of Columbia;

App.42a

or except as to the requirements of section 552 of this
title—
(E) agencies composed of representatives of the
parties or of representatives of organizations of the
parties to the disputes determined by them;
(F)courts martial and military commissions!
(G) military authority exercised in the field in time of
war or in occupied territory! or
(H) functions conferred by sections 1738, 1739, 1743,
and 1744 of title 12! subchapter II of chapter 471 of
title 49! or sections 1884, 1891-1902, and former
section 1641(b)(2), of title 50, appendix! [l]
(2) “person” includes an individual, partnership,
corporation, association, or public or private
organization other than an agency!
(3) “party” includes a person or agency named or
admitted as a party, or properly seeking and entitled
as of right to be admitted as a party, in an agency
proceeding, and a person or agency admitted by
an agency as a party for limited purposes!
(4) “rule” means the whole or a part of
an agency statement of general or particular
applicability and future effect designed to implement,
interpret, or prescribe law or policy or describing the
organization, procedure, or practice requirements of
an agency and includes the approval or prescription
for the future of rates, wages, corporate or financial
structures or reorganizations thereof, prices, facilities,
appliances, services or allowances therefor or of
valuations, costs, or accounting, or practices bearing
on any of the foregoing!
(5)“rule
making”
means agency process
for
formulating, amending, or repealing a rule!
(6) “order” means the whole or a part of a final
disposition, whether affirmative, negative, injunctive,

App.43a

or declaratory in form, of an agency in a matter other
than rule making but including licensing;
(7) “adjudication” means agency process for the
formulation of an order;
(8) “license” includes the whole or a part of
an agency permit, certificate, approval, registration,
charter, membership, statutory exemption or other
form of permission;
(9) “licensing” includes agency process respecting the
grant, renewal, denial, revocation, suspension,
annulment, withdrawal, limitation, amendment,
modification, or conditioning of a license;
(10)“sanction” includes the whole or a part of
an agency—
(A) prohibition, requirement, limitation, or other
condition affecting the freedom of a person;
(B) withholding of relief;
(C) imposition of penalty or fine;
(D) destruction, taking, seizure, or withholding of
property;
(E) assessment of damages, reimbursement,
restitution, compensation, costs, charges, or fees;
(F) requirement, revocation, or suspension of
a license; or
(G) taking other compulsory or restrictive action;
(11)“relief’ includes the whole or a part of an agency—
(A) grant of money, assistance, license, authority,
exemption, exception, privilege, or remedy;
(B) recognition of a claim, right, immunity, privilege,
exemption, or exception; or
(C) taking of other action on the application or petition
of, and beneficial to, a person;
(12) “agency proceeding” means an agency process as
defined by paragraphs (5), (7), and (9) of this section;

App.44a

(13) “agency action” includes the whole or a part of
an agency rule, order, license, sanction, relief, or the
equivalent or denial thereof, or failure to act; and
(14) “ex parte communication” means an oral or
written communication not on the public record with
respect to which reasonable prior notice to all parties
is not given, but it shall not include requests for status
reports on any matter or proceeding covered by this
subchapter.
5 U.S.C. 552a- Records maintained on individuals,
Privacy Act
5 U.S.C. 552a(a): Definitions
(1) the term “agency” means agency as defined
in section 552(e) [l] of this title;
(2) the term “individual” means a citizen of the United
States or an alien lawfully admitted for permanent
residence;
(3) the term “maintain” includes maintain, collect,
use, or disseminate;
(4) the term “record” means any item, collection, or
grouping of information about an individual that is
maintained by an agency, including, but not limited
to, his education, financial transactions, medical
history, and criminal or employment history and that
contains his name, or the identifying number, symbol,
or other identifying particular assigned to
the individual, such as a finger or voice print or a
photograph;
(5) the term “system of records” means a group of
any records under the control of any agency from
which information is retrieved by the name of
the individual or by some identifying number, symbol,

App.45a

or other identifying particular assigned to
the individual;
(12) the term “Federal benefit program” means any
program administered or funded by the Federal
Government, or by any agent or State on behalf of the
Federal Government, providing cash or in-kind
assistance in the form of payments, grants, loans, or
loan guarantees to individuals;
5 U.S.C. 552a(0 Agency Rules
(OAgency RULES.—In order to carry out the
provisions
of
this
section,
each agency that maintains a system of records shall
promulgate rules, in
accordance
with
the
requirements (including general notice) of section 553
of this title, which shall—
(l) establish procedures whereby an individual can be
notified in response to his request if any system of
the individual contains
records named
by
a record pertaining to him;
(2) define reasonable times, places, and requirements
for
identifying
an individual who
requests
his record or information pertaining to him before
the agency shall make the record or information
available to the individual;
(3) establish procedures for the disclosure to
an individual upon his request of his record or
information pertaining to him, including special
procedure, if deemed necessary, for the disclosure to
an individual of
medical
records,
including
psychological records, pertaining to him;
(4) establish procedures for reviewing a request from
amendment
of
an individual concerning
the
information
pertaining
to
any record or
the individual, for making a determination on the

App.46a

request, for an appeal within the agency of an initial
adverse agency determination, and for whatever
means
may
be
necessary
for
additional
each individual to be able to exercise fully his rights
under this section; and
5 U.S.C. 552a(g) Civil Remedies
(g) (l)CIVIL Remedies.—Whenever any agency
(A) makes a determination under subsection (d)(3) of
this section not to amend an individual’s record in
accordance with his request, or fails to make such
review in conformity with that subsection;
(B) refuses to comply with an individual request
under subsection (d)(l) of this section;
(C) fails to maintain any record concerning any
individual with such accuracy, relevance, timeliness,
and completeness as is necessary to assure fairness in
any determination relating to the qualifications,
character, rights, or opportunities of, or benefits to
the individual that may be made on the basis of
such record, and consequently a determination is
made which is adverse to the individual; or
(D) fails to comply with any other provision of this
section, or any rule promulgated thereunder, in such
a way as to have an adverse effect on an individual,
the individual may bring a civil action against
the agency, and the district courts of the United
States shall have jurisdiction in the matters under the
provisions of this subsection.
(2)
(A) In any suit brought under the provisions of
subsection (g)(1)(A) of this section, the court
may order the agency to amend the individual’s
record in accordance with his request or in such other

App.47a

way as the court may direct. In such a case the court
shall determine the matter de novo.
(B) The court may assess against the United States
reasonable attorney fees and other litigation costs
reasonably incurred in any case under this paragraph
in which the complainant has substantially prevailed.
(3)
(A) In any suit brought under the provisions of
subsection (g)(1)(B) of this section, the court may
enjoin the agency from withholding records and order
the production to the complainant of any agency
■ records improperly withheld from him. In such a case
the court shall determine the matter de novo, and may
examine the contents of any agency records in camera
to determine whether the records or any portion
thereof may be withheld under any of the exemptions
set forth in subsection (k) of this section, and the
burden is on the agency to sustain its action.
(B) The court may assess against the United States
reasonable attorney fees and other litigation costs
reasonably incurred in any case under this paragraph
in which the complainant has substantially prevailed.
(4)ln any suit brought under the provisions of
subsection (g)(1)(C) or (D) of this section in which the
court determines that the agency acted in a manner
which was intentional or willful, the United States
shall be liable to the individual in an amount equal to
the sum of—
(A) actual damages sustained by the individual as a
result of the refusal or failure, but in no case shall
a person entitled to recovery receive less than the sum
of $1,000; and
(B) the costs of the action together with reasonable
attorney fees as determined by the court.
(5) An action to enforce any liability created under this
section may be brought in the district court of the

App.48a

United States in the district in which the complainant
resides, or has his principal place of business, or in
which the agency records are situated, or in the
District of Columbia, without regard to the amount in
controversy, within two years from the date on which
the cause of action arises, except that where
willfully
an agency has
materially
and
misrepresented any information required under this
section to be disclosed to an individual and the
information so misrepresented is material to
establishment of the liabihty of the agency to
the individual under this section, the action may be
brought at any time within two years after discovery
by the individual of the misrepresentation. Nothing in
this section shall be construed to authorize any civil
action by reason of any injury sustained as the result
of a disclosure of a record prior to September 27, 1975.
5 U.S.C. 559- Effect on other laws; effect of subsequent
statute
This subchapter, chapter 7, and sections 1305, 3105,
3344, 4301(2)(E), 5372, and 7521 of this title, and the
provisions of section 5335(a)(B) of this title that relate
to administrative law judges, do not limit or repeal
additional requirements imposed by statute or
otherwise recognized by law. Except as otherwise
required by law, requirements or privileges relating to
evidence or procedure apply equally to agencies
and persons. Each agency is granted the authority
necessary to comply with the requirements of this
subchapter through the issuance of rules or
otherwise. Subsequent statute may not be held to
supersede or modify this subchapter, chapter 7,

App.49a

sections 1305, 3105, 3344, 430l(2)(E), 5372, or 7521 of
this title, or the provisions of section 5335(a)(B) of this
title that relate to administrative law judges, except
to the extent that it does so expressly.
5 U.S.C. 701, et seq. Administrative Procedure Act
5 U.S.C. 701-Application, definitions
This chapter applies, according to the provisions
thereof, except to the extent that—
(1) statutes preclude judicial review; or
(2) agency action is committed to agency discretion by
law.
(b)For the purpose of this chapter—
(1)“agency” means each authority of the Government
of the United States, whether or not it is within or
subject to review by another agency, but does not
include—
(A) the Congress;
(B) the courts of the United States;
(C) the governments of the territories or possessions
of the United States;
(D) the government of the District of Columbia;
(E) agencies composed of representatives of the
parties or of representatives of organizations of the
parties to the disputes determined by them!
(F) courts martial and mihtary commissions;
(G) military authority exercised in the field in time of
war or in occupied territory; or
(H) functions conferred by sections 1738, 1739, 1743,
and 1744 of title 12; subchapter II of chapter 471 of
title 49; or sections 1884, 1891-1902, and former
section 1641(b)(2), of title 50, appendix; [l] and
’’sanction”
(2)“person”, “rule”, “order”
“license”,
“relief’, and “agency action” have the meanings given
to them by section 551 of this title.

App.50a

5 U.S.C. 702- Right to review
A person suffering legal wrong because of agency
action, or adversely affected or aggrieved by agency
action within the meaning of a relevant statute, is
entitled to judicial review thereof. An action in a court
of the United States seeking relief other than money
damages and stating a claim that an agency or an
officer or employee thereof acted or failed to act in an
official capacity or under color of legal authority shall
not be dismissed nor relief therein be denied on the
ground that it is against the United States or that the
United States is an indispensable party. The United
States may be named as a defendant in any such
action, and a judgment or decree may be entered
against the United States: Provided, That any
mandatory or injunctive decree shall specify the
Federal officer or officers (by name or by title), and
their successors in office, personally responsible for
compliance. Nothing herein (l) affects other
limitations on judicial review or the power or duty of
the court to dismiss any action or deny relief on any
other appropriate legal or equitable ground; or (2)
confers authority to grant relief if any other statute
that grants consent to suit expressly or impliedly
forbids the relief which is sought.
5 U.S.C. 703- Form and venue of proceeding
The form of proceeding for judicial review is the
special statutory review proceeding relevant to the
subject matter in a court specified by statute or, in the
absence or inadequacy thereof, any applicable form of

App.51a

legal action, including actions for declaratory
judgments or writs of prohibitory or mandatory
injunction or habeas corpus, in a court of competent
jurisdiction. If no special statutory review proceeding
is applicable, the action for judicial review may be
brought against the United States, the agency by its
official title, or the appropriate officer. Except to the
extent that prior, adequate, and exclusive opportunity
for judicial review is provided by law, agency action is
subject to judicial review in civil or criminal
proceedings for judicial enforcement.
5 U.S.C. 706- Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action. The
reviewing court shall—
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2)hold unlawful and set aside agency action, findings,
and conclusions found to be—
(A) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege,
or immunity;
(C) in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case
subject to sections 556 and 557 of this title or
otherwise reviewed on the record of an agency hearing
provided by statute; or

App.52a

(F) unwarranted by the facts to the extent that the
facts are subject to trial de novo by the reviewing
court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it cited
by a party, and due account shall be taken of
the rule of prejudicial error.
28 U.S.C. 1346(b)(1)- United States as defendant
Subject to the provisions of chapter 171 of this title,
the district courts, together with the United States
District Court for the District of the Canal Zone and
the District Court of the Virgin Islands, shall have
exclusive jurisdiction of civil actions on claims against
the United States, for money damages, accruing on
and after January 1, 1945, for injury or loss of
property, or personal injury or death caused by the
negligent or wrongful act or omission of any employee
of the Government while acting within the scope of his
office or employment, under circumstances where the
United States, if a private person, would be liable to
the claimant in accordance with the law of the place
where the act or omission occurred.
28 U.S.C. 2671-2680 — Federal Tort Claims Act
28 U.S.C. 2671- Definitions
As used in this chapter and sections 1346(b) and
2401(b)
of this title,
the
term “Federal
agency” includes the executive departments, the
judicial and legislative branches, the military
departments, independent establishments of the
United States, and corporations primarily acting as
instrumentalities or agencies of the United States, but

App.53a

does not include any contractor with the United
States.
“Employee of the government” includes (l) officers
or employees of any federal agency, members of the
military or naval forces of the United States, members
of the National Guard while engaged in training or
duty under section 115, 316, 502, 503, 504, or 505 of
title 32, and persons acting on behalf of a federal
agency in an official capacity, temporarily or
permanently in the service of the United States,
whether with or without compensation, and (2) any
officer or employee of a Federal public defender
organization, except when such officer or employee
performs professional services in the course of
providing representation under section 3006A of title
18.
“Acting within the scope of his office or
employment”, in the case of a member of the military
or naval forces of the United States or a member of the
National Guard as defined in section 101 (3) of title 32,
means acting in line of duty.
28 U.S.C. 2675- Disposition by agency as perquisite,
evidence
(a) An action shall not be instituted upon a claim
against the United States for money damages for
injury or loss of property or personal injury or death
caused by the negligent or wrongful act or omission of
any employee of the Government while acting within
the scope of his office or employment, unless the
claimant shall have first presented the claim to the
appropriate Federal agency and his claim shall have
been finally denied by the agency in writing and sent
by certified or registered mail. The failure of an

App.54a

agency to make final disposition of a claim within six
months after it is filed shall, at the option of the
claimant any time thereafter, be deemed a final denial
of the claim for purposes of this section. The provisions
of this subsection shall not apply to such claims as
may be asserted under the Federal Rules of Civil
Procedure by third party complaint, cross-claim, or
counterclaim.
(b) Action under this section shall not be instituted for
any sum in excess of the amount of the claim
presented to the federal agency, except where the
increased amount is based upon newly discovered
evidence not reasonably discoverable at the time of
presenting the claim to the federal agency, or upon
allegation and proof of intervening facts, relating to
the amount of the claim.
(c) Disposition of any claim by the Attorney General
or other head of a federal agency shall not be
competent evidence of liability or amount of damages.
28 U.S.C. 2680(a)- Exceptions
The provisions of this chapter and section 1346(b) of
this title shall not apply to—
(a) Any claim based upon an act or omission of
an employee of the Government, exercising due care,
in the execution of a statute or regulation, whether or
not such statute or regulation be valid, or based upon
the exercise or performance or the failure to exercise
or perform a discretionary function or duty on the part
of a federal agency or an employee of the Government,
whether or not the discretion involved be abused.

App.55a

38 U.S.C. 501, et seq. Department of Veterans Affairs
Codification Act of 1991
38 U.S.C. 501- Rules and regulations
(a)The Secretary has authority to prescribe all rules
and regulations which are necessary or appropriate to
carry out the laws administered by the Department
and are consistent with those laws, including—
(1) regulations with respect to the nature and extent
of proof and evidence and the method of taking and
furnishing them in order to establish the right to
benefits under such laws;
(2) the forms of application by claimants under such
laws;
(3) the methods of making investigations and medical
examinations; and
(4) the manner and form of adjudications and awards.
(b) Any rule, regulation, guideline, or other published
interpretation or order (and any amendment thereto)
issued pursuant to the authority granted by this
section or any other provision of this title shall contain
citations to the particular section or sections of
statutory law or other legal authority upon which such
issuance is based. The citation to the authority shall
appear immediately following each substantive
provision of the issuance.
(c) In applying section 552(a)(1) of title 5 to the
Department, the Secretary shall ensure that
subparagraphs (C), (D), and (E) of that section are
complied with, particularly with respect to opinions
and interpretations of the General Counsel.
(d) The provisions of section 553 of title 5 shall apply,
without regard to subsection (a)(2) of that section, to
matters relating to loans, grants, or benefits under a
law administered by the Secretary.

App.56a

38 U.S.C. 511- Decisions of the Secretary, finality
(a) The Secretary shall decide all questions of law and
fact necessary to a decision by the Secretary under a
law that affects the provision of benefits by the
Secretary to veterans or the dependents or survivors
of veterans. Subject to subsection (b), the decision of
the Secretary as to any such question shall be final
and conclusive and may not be reviewed by any other
official or by any court, whether by an action in the
nature of mandamus or otherwise.
(b)The second sentence of subsection (a) does not apply
to—
(1) matters subject to section 502 of this title;
(2) matters covered by sections 1975 and 1984 of this
title;
(3) matters arising under chapter 37 of this title; and
(4) matters covered by chapter 72 of this title.
38 U.S.C. 512- Delegation of authority, assignment of
functions and duties
(a) Except as otherwise provided by law, the Secretary
may assign functions and duties, and delegate, or
authorize successive redelegation of, authority to act
and to render decisions, with respect to all laws
administered by the Department, to such officers and
employees as the Secretary may find necessary.
Within the limitations of such delegations,
redelegations, or assignments, all official acts and
decisions of such officers and employees shall have the
same force and effect as though performed or rendered
by the Secretary.
(b) There shall be included on the technical and
administrative staff of the Secretary such staff
officers, experts, inspectors, and assistants (including
legal assistants) as the Secretary may prescribe.

App.57a

38 U.S.C. 7251, et seq. Veterans Judicial Review Act
of 1988
38 U.S.C. 7251- Status
There is hereby established, under Article I of the
Constitution of the United States, a court of record to be
known as the United States Court of Appeals for Veterans
Claims.
38 U.S.C. 7252- Jurisdiction, finality of decisions
(a) The Court of Appeals for Veterans Claims shall
have exclusive jurisdiction to review decisions of the
Board of Veterans’ Appeals. The Secretary may not
seek review of any such decision. The Court shall have
power to affirm, modify, or reverse a decision of the
Board or to remand the matter, as appropriate.
(b) Review in the Court shall be on the record of
proceedings before the Secretary and the Board. The
extent of the review shall be limited to the scope
provided in section 7261 of this title. The Court may
not review the schedule of ratings for disabilities
adopted under section 1155 of this title or any action
of the Secretary in adopting or revising that schedule.
(c) Decisions by the Court are subject to review as
provided in section 7292 of this title.
38 U.S.C. 7261-Scope of review
(a)ln any action brought under this chapter, the Court
of Appeals for Veterans Claims, to the extent
necessary to its decision and when presented, shall—
(l) decide all relevant questions of law, interpret
constitutional, statutory, and regulatory provisions,
and determine the meaning or applicability of the
terms of an action of the Secretary;

App.58a

(2) compel action of the Secretary unlawfully withheld
or unreasonably delayed;
(3) hold unlawful and set aside decisions, findings
(other than those described in clause (4) of this
subsection), conclusions, rules, and regulations issued
or adopted by the Secretary, the Board of Veterans’
Appeals, or the Chairman of the Board found to be—
(A) arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law;
(B) contrary to constitutional right, power, privilege,
or immunity;
(C) in excess of statutory jurisdiction, authority, or
limitations, or in violation of a statutory right; or
(D) without observance of procedure required by law;
and
(4) in the case of a finding of material fact adverse to
the claimant made in reaching a decision in a case
before the Department with respect to benefits under
laws administered by the Secretary, hold unlawful
and set aside or reverse such finding if the finding is
clearly erroneous.
(b)ln making the determinations under subsection (a),
the Court shall review the record of proceedings before
the Secretary and the Board of Veterans’ Appeals
pursuant to section 7252(b) of this title and shall—
(1) take due account of the Secretary’s application
of section 5107(b) of this title; and
(2) take due account of the rule of prejudicial error.
(c) In no event shall findings of fact made by the
Secretary or the Board of Veterans’ Appeals be subject
to trial de novo by the Court.
(d) When a final decision of the Board of Veterans’
Appeals is adverse to a party and the sole stated basis
for such decision is the failure of the party to comply
with any applicable regulation prescribed by the
Secretary, the Court shall review only questions

App.59a

raised as to compliance with and the validity of the
regulation.
REGULATIONS
28 CFR part 14 Administrative Claims Under Federal
Tort Claims Act
28 C.F.R. 14.1- Scope of regulations
These regulations shall apply only to claims asserted
under the Federal Tort Claims Act. The terms Federal
agency and agency, as used in this part, include the
executive departments, the military departments,
independent establishments of the United States, and
corporations primarily acting as instrumentalities or
agencies of the United States but do not include any
contractor with the United States.
28 C.F.R. 14.2 (a)- Administrative claims, when
presented
(a) For
purposes
of
the
provisions
of 28 U.S.C. 2401(b), 2672, and 2675, a claim shall be
deemed to have been presented when a Federal
agency receives from a claimant, his duly authorized
agent or legal representative, an executed Standard
Form 95 or other written notification of an incident,
accompanied by a claim for money damages in a sum
certain for injury to or loss of property, personal
injury, or death alleged to have occurred by reason of
the incident; and the title or legal capacity of the
person signing, and is accompanied by evidence of his
authority to present a claim on behalf of the claimant
as agent, executor, administrator, parent, guardian,
or other representative.

App.60a

28 C.F.R. 14.9- Notice of final denial
(a) Final denial of an administrative claim shall be in
writing and sent to the claimant, his attorney, or legal
representative by certified or registered mail. The
notification of final denial may include a statement of
the reasons for the denial and shall include a
statement that, if the claimant is dissatisfied with the
agency action, he may file suit in an appropriate U.S.
District Court not later than 6 months after the date
of mailing of the notification.
(b) Prior to the commencement of suit and prior to the
expiration of the 6-month period provided in 28 U.S.C.
2401(b), a claimant, his duly authorized agent, or legal
representative, may file a written request with the
agency for reconsideration of a final denial of a claim
under paragraph (a) of this section. Upon the timely
filing of a request for reconsideration the agency shall
have 6 months from the date of fihng in which to make
a final disposition of the claim and the claimant's
option under 28 U.S.C. 2675(a) shall not accrue until
6 months after the filing of a request for
reconsideration. Final agency action on a request for
reconsideration shall be effected in accordance with
the provisions of paragraph (a) of this section.
28 C.F.R. 14.11- Supplementing regulations
Each agency is authorized to issue regulations and
establish procedures consistent with the regulations
in this part.
28 CFR part 15 Certification and Decertification in
Connection with Certain Suits Based Upon Acts or
Omissions of Federal Employees and Other Persons

App.61a

28 C.F.R. 15.1- General provisions
(a) This
part
contains
the
regulations
of
the Department of Justice governing the application
for and the issuance of statutory certifications and
decertifications in connection with certain suits based
upon the acts or omissions of Federal employees and
certain other persons as to whom the remedy provided
by the Federal Tort Claims Act, 28 U.S.C. 1346(b) and
28 U.S.C. 2672, is made exclusive of any other civil
action or proceeding for money damages by reason of
the same subject matter against such Federal
employees and other persons.
(b) As used in this part(1) Appropriate Federal agency means the Federal
agency most closely associated with the program out
of which the claim or suit arose. When it cannot be
ascertained which Federal agency is the most
closely associated with the program out of which the
claim or suit arose, the responsible Director of the
Torts Branch, Civil Division, Department of
Justice, shall be consulted and will thereafter
designate the appropriate Federal agency.
(2) Federal employee means “employee of the
United States” as that term is defined by 28 U.S.C.
2671.
(3) Covered person means any person other than a
Federal employee or the estate of a Federal
employee as to whom Congress has provided by
statute
that
the
remedy
provided
by 28 U.S.C. 1346(b) and 2672 is made exclusive of
any other civil action or proceeding for money
damages by reason of the same subject matter
against such person.

App.62a

28 C.F.R. 15.3- Agency Report
(a) The Federal employee's employing Federal agency
shall submit a report to the United States Attorney for
the district embracing the place where the civil action
or proceeding is brought fully addressing whether the
employee was acting within the scope of his office or
employment with the Federal Government at the time
of the incident out of which the suit arose, and a copy
of the report shall be sent by the employing Federal
agency to the responsible Branch Director of the Torts
Branch, Civil Division, Department of Justice.
(b) The appropriate Federal agency shall submit a
report to the United States Attorney for the district
embracing the place where the civil action or
proceeding is brought fully addressing whether the
person was acting as a covered person at the time of
the incident out of which the suit arose, and a copy of
the report shall be sent by the appropriate Federal
agency to the responsible Branch Director of the Torts
Branch, Civil Division, Department of Justice.
(c) A report under this section shall be submitted at
the earliest possible date, or within such time as shall
be fixed upon request by the United States Attorney
or the responsible Branch Director of the Torts
Branch.
28 C.F.R. 15.4- Removal and Defense of Suits
(a) The United States Attorney for the district where
the civil action or proceeding is brought, or any
Director
of
the
Torts
Branch, Civil
Division, Department of Justice, is authorized to
make the statutory certification that the Federal
employee was acting within the scope of his office or

App.63a

employment with the Federal Government at the time
of the incident out of which the suit arose.
(b) The United States Attorney for the district where
the civil action or proceeding is brought, or any
Director
of
the
Torts
Branch, Civil
Division, Department of Justice, is authorized to
make the statutory certification that the covered
person was acting at the time of the incident out of
which the suit arose under circumstances in
which Congress has provided by statute that the
remedy provided by the Federal Tort Claims Act is
made the exclusive remedy.
(c) A certification under this section may be
withdrawn if a further evaluation of the relevant facts
or the consideration of new or additional evidence calls
for such action. The making, withholding, or
withdrawing of certifications, and the removal and
defense of, or refusal to remove or defend, such civil
actions or proceedings shall be subject to the
instructions and supervision of the Assistant Attorney
General in charge of the Civil Division or his or her
designee.
38 CFR part 1 General Provisions' Safeguarding
Personal Information in Department of Veterans
Affairs Records
38 C.F.R. 1.579-Amendment of records
(a) Any individual may request amendment of any
Department of Veterans Affairs pertaining to him or
her. Not later than 10 days (excluding Saturdays,
Sundays, and legal public holidays) after the date or
receipt of such request, the Department of Veterans
Affairs will acknowledge in writing such receipt.

App.64a

The Department of Veterans Affairs will complete the
review to amend or correct a record as soon as
reasonably possible, normally within 30 days from the
receipt of the request (excluding Saturdays, Sundays,
and legal public holidays) unless unusual
circumstances preclude completing action within that
time. The Department of Veterans Affairs will
promptly either:
(1) Correct
any
part
thereof
which
the individual believes is not accurate, relevant,
timely or complete; or
(2) Inform the individual of the Department of
Veterans Affairs refusal to amend the record in
accordance with his or her request, the reason for
the
refusal,
the
procedures
by
which
the individual may request a review of that refusal
by the Secretary or designee, and the name and
address of such official.
(Authority* 5 U.S.C. 552a(d)(2))
(b) The administration or staff office having
jurisdiction over the records involved will establish
procedures
for
reviewing
a request from
an individual concerning
the
amendment
of
any record or
information
pertaining
to
the individual, for making a determination on
the request, for an appeal within the Department of
Veterans Affairs of an initial adverse Department of
Veterans Affairs determination, and for whatever
additional
means
may
be
necessary
for
each individual to be able to exercise fully, his or her
right under 5 U.S.C. 552a.
(l) Headquarters officials designated as responsible
for the amendment of records or information

App.65a

located in Central Office and under their
jurisdiction include, but are not limited
to- Secretary; Deputy Secretary, as well as other
appropriate individuals responsible for the conduct
of business within the various Department of
Veterans Affairs administrations and staff offices.
These officials will determine and advise
the requester of the
identifying information
required
to
relate
the request to
the
appropriate record, evaluate and grant or
deny requests to amend, review initial adverse
and
determinations
upon request,
assist requesters desiring
to
amend
or appeal initial adverse determinations or learn
further of the provisions for judicial review.
(2) The following field officials are designated as
responsible for the amendment of records or
information located in facilities under their
jurisdiction, as appropriate: The Director of each
Center, Domiciliary, Medical Center, Outpatient
Clinic, Regional Office, Supply Depot, and Regional
Counsels. These officials will function in the same
manner at field facilities as that specified in the
preceding subparagraph for headquarters officials
in Central Office.
(Authority- 5 U.S.C. 552a(f)(4))
with
(c) Any individual who
disagrees
the Department of Veterans Affairs refusal to amend
his or her record may request a review of such refusal.
The Department of Veterans Affairs will complete
such review not later than 30 days (excluding
Saturdays, Sundays, and legal public holidays) from
the date on which the individual request such review
and make a final determination unless, for good cause

App.66a

shown, the Secretary extends such 30-day period. If,
after review, the Secretary or designee also refuses to
amend
the record in
accordance
with
the request the individual will be advised of the right
to file with the Department of Veterans Affairs a
concise statement setting forth the reasons for his or
her disagreement with the Department of Veterans
Affairs refusal and also advise of the provisions for
judicial review
of the
reviewing
official's
determination. (5 U.S.C. 552a(g)(l)(A))
(d) In any disclosure, containing information about
which the individual has filed a statement of
disagreement, occurring after the filing of the
statement under paragraph (c) of this section,
the Department of Veterans Affairs will clearly note
any part of the record which is disputed and provide
copies of the statement (and, if the Department of
Veterans Affairs deems it appropriate, copies of a
concise statement of the Department of Veterans
Affairs reasons for not making the amendments
requested) to persons or other agencies to whom the
disputed record has been disclosed. (5 U.S.C.
552a(d)(4)) (38 U.S.C. 501)
38 C.F.R. 1.580- Administrative review
(a) Upon consideration and denial of a request under §
1.577 or § 1.579 of this part, the responsible VA
or
designated employee will
inform
official
the requester in writing of the denial. The adverse
determination
notice
must
be
signed
by
the component head or the component's Privacy
Officer, and shall include the following:

App.67a

(1) The
name
and
the person responsible
determination;

title
for

or

position of
the
adverse

(2) A brief statement of the reason(s) for the denial
and the policy upon which the denial is based; and
(3) Notice
that
the requester may appeal the
adverse determination under paragraph (b) of this
section to the Office of General Counsel (providing
the address as follows^ Office of General
Counsel (024),
810 Vermont Avenue
NW,
Washington, DC 20420), and instructions on what
information is required for an appeal, which
includes why the individual disagrees with the
initial denial with specific attention to one or more
of the four standards (e.g., accuracy, relevance,
timeliness, and completeness), and a copy of the
denial letter and any supporting documentation
that demonstrates why the individual believes the
information does not meet these requirements.
(b) The final agency decision in appeals of adverse
determinations described in paragraph (a) of this
section will be made by the designated official within
the Office of General Counsel (024).
(c) A written denial must have occurred to appeal to
OGC. The absence of a response to an
access or amendment request filed
with
a
VA component is not a denial. If an individual has not
received a response to a request for access to or
amendment of records, the individual must pursue
the request with the Privacy Officer of the
administration office (e.g., the VHA, VBA, or National
Cemetery Administration Privacy Officer) or staff
office (e.g., the Office of Information Technology

App.68a

or Office of Inspector General Privacy Staff Officer)
that has custody over the records.
38 CFR part 14 Legal Services, General Counsel,
Miscellaneous Claims
38 C.F.R. 14.500- Functions and responsibilities of
General Counsel
The General Counsel is responsible to the Secretary
for the following^
(a) All litigation arising in, or out of, the activities of
the Department of Veterans Affairs or involving any
employee thereof in his or her official capacity.
(b) All
interpretative
legal
advice
involving
construction or application of laws, including statutes,
regulations, and decisional as well as common law.
(c) All legal services, advice and assistance required to
implement any law administered by the Department
of Veterans Affairs.
(d) All delegations of authority and professional
guidance required to meet these responsibilities.
(e) Maintenance of a system of field offices capable of
providing
legal
advice
and
assistance
to
all Department of Veterans Affairs field installations
and acting for the General Counsel as provided
by Department of Veterans Affairs Regulations and
instructions, or as directed by the General Counsel in
special cases. This includes cooperation with
U.S. Attorneys in all civil and criminal cases
pertaining to the Department of Veterans Affairs and
reporting to the U.S. Attorneys, as authorized, or to
the General Counsel, or both, criminal matters
coming to the attention of the Regional Counsel.

App.69a

(0 Other matters assigned.
38 C.F.R. 14.501- Functions and responsibilities of
Regional Counsel
(a) Functions and responsibilities of the Regional
Counsels are those set forth in this part and all other
matters assigned by the General Counsel.

(b) In

any matter within the jurisdiction of
the General Counsel, delegated or otherwise assigned,
the
Regional
Counsel
and
designated
staff attorneys are
authorized
to
conduct
investigations, examine witnesses, take affadavits,
administer oaths and affirmations and certify copies
of public or private documents.
(c) The Regional Counsel is authorized to, and shall,
under the guidance of the General Counsel, provide
legal services, advice and assistance to Department of
Veterans Affairs installations within the district
assigned. In any area of regulatory, assigned or
delegated responsibility, the Regional Counsel may
delegate to staff members or other Department of
Veterans Affairs attorneys authority to perform, to
the extent specified, any legal function under the
professional direction of the Regional Counsel.
Conversely, the Regional Counsel may modify,
suspend, or rescind any authority delegated
hereunder.
(d) The Regional Counsel is authorized to cooperate
with affiliated organizations, legislative committees,
and with local and State bar associations to the end
that
any State law
deficiencies
relating
to Department of Veterans Affairs operations may be
removed. No commitment as to proposed legislation

App.70a

will be made without the approval of the General
Counsel.
(e) In any case wherein the Regional Counsel is
authorized to take legal action and payment of costs
and necessary expenses incident thereto are involved,
the administration requesting such action will pay
such cost and expenses. Where it is impractical for the
Regional Counsel to perform the legal service because
of cost, distance, etc., the customary fee for
the service rendered by a local attorney employed by
the Regional Counsel will be borne by the
administration requesting such action.
38 C.F.R. 14.600(a)(b)- Federal Tort Claims Actgeneral
(a) Federal Tort Claims Act - overview. The Federal
Tort Claims Act (28 U.S.C. 1291, 1346, 1402, 2401,
2402, 2411, 2412, and 2671 through 2680) prescribes
a uniform procedure for handling of claims against
the United States, for money only, on account of
damage to or loss of property, or on account of personal
injury or death, caused by the negligent or wrongful
act or omission of a Government employee while
acting within the scope of his or her office or
employment, under circumstances where the United
States, if a private person, would be liable in
accordance with the law of the place where the act or
omission occurred.
(b) Applicable regulations. The regulations issued by
the Department of Justice at 28 CFR part 14 are
applicable to claims asserted under the Federal Tort
Claims Act, including such claims that are filed with
VA. The regulations in §§ 14.600 through 14.605 of
this part supplement the regulations at 28 CFR part
14.

App.71a

38 C.F.R. 14.604- Filing a claim
(a) Each person who inquires as to the procedure for
filing a claim against the United States, predicated on
a negligent or wrongful act or omission of an employee
of the Department of Veterans Affairs acting within
the scope of his or her employment, will be furnished
a copy of SF 95, Claim for Damage, Injury, or Death.
The claimant will be advised to submit the
executed claim directly to the Regional Counsel
having jurisdiction of the area wherein the occurrence
complained of took place. He or she will also be
advised to submit the information prescribed by 28
CFR 14.4 to the extent applicable. If a claim is
presented
to
the Department
of
Veterans
Affairs which involves the actions of employees or
officers of other agencies, it will be forwarded to
the Department of Veterans Affairs General Counsel,
for appropriate action in accord with 28 CFR 14.2.
(b) A claim shall be deemed to have been presented
when the Department of Veterans Affairs receives
from a claimant, his or her duly authorized agent or
legal representative, an executed SF 95, or other
written notification of an incident, together with
a claim for money damages, in a sum certain, for
damage to or loss of property or personal injury or
death: Provided' however, That before compromising
or settling any claim, an executed SF 95 shall be
obtained from the claimant.
(c) A claim presented in compliance with paragraphs
(a) and (b) of this section may be amended by
the claimant at any time prior to final Department of
Veterans Affairs action or prior to the exercise of
the claimant's option under 28 U.S.C. 2675(a).
Amendments shall be submitted in writing and signed

App.72a

by the claimant or his or her duly authorized agent or
legal representative. Upon the timely filing of an
amendment to a pending claim, the Department of
Veterans Affairs shall have 6 months in which to
make a final disposition of the claim as amended and
the claimant's option under 28 U.S.C. 2675(a) shall
not accrue until 6 months after the filing of the
amendment.
38 C.F.R. 14.605(a)(1)- Suits against the Department
of Veterans Affairs employees arising out of a
wrongful act or omission or based upon medical care
or treatment furnished in or for the Veterans Health
Administration
(a)(l) Section 2679 of title 28 U.S.C., provides that no
suit will lie against a Federal employee, or the
employee's estate, for damage to property, personal
injury, or death resulting from his or her wrongful act
or omission while acting within the scope of his or her
office or employment with the Federal Government.
An
action
against
the
United
States
under 28 U.S.C. 2671-2680 is the exclusive remedy
under these circumstances.
38 CFR part 20* Board of Veterans Appeals: Rules of
Practice
38 C.F.R. Subpart A: General; 38 CFR 20.1
(a) Purpose. These rules establish the practices and
procedures governing appeals to the Board
of Veterans'Appeals (Board).
(b) Construction. These rules are to be construed to
secure a just and speedy decision in every appeal.

App.73a

38 C.F.R. Subpart B- 38 CFR 20.101; Composition of
Board, titles.
(a) The Board consists of a Chairman, Vice Chairman,
Deputy Vice Chairmen, Members and professional,
administrative, clerical and stenographic personnel.
Deputy Vice Chairmen are Members of the Board who
are appointed to that office by the Secretary upon the
recommendation of the Chairman.
(b) A Member of the Board (other than the Chairman)
may also be known as a Veterans Law Judge.
An individual designated as an acting member
pursuant to 38 U.S.C. 7101(c)(1) may also be known
as an acting Veterans Law Judge.
38 C.F.R. Subpart D- Evidentiary Record; 38 CFR
20.300(a)
(a) Decisions of the Board will be based on a de novo
review of the evidence of record at the time of
the agency of original jurisdiction decision on
the issue or issues on appeal, and any additional
evidence or testimony submitted pursuant to this
subpart, as provided in § 20.801.
38 C.F.R. Subpart K: Vacatur and Reconsideration
38 CFR 20.1001: When reconsideration is accorded.
Reconsideration of an appellate decision may be
accorded at any time by the Board of Veterans'
Appeals on motion by the appellant or his or her
representative or on the Board's own motion:
(a) Upon allegation of obvious error of fact or law;
(b) Upon discovery of new evidence in the form of
relevant records or reports of the service department
concerned; or

App.74a

(c) Upon allegation that an allowance of benefits by
the Board has been materially influenced by false or
fraudulent evidence submitted by or on behalf of
the appellant.
38 CFR 20.1002: Filing and disposition of a motion for
reconsideration.
(a) Application
requirements A
motion
for
reconsideration must be in writing and must include
the name of the veteran; the name of
the claimant or appellant if other than the veteran
(e.g., a veteran's survivor, a guardian, or a fiduciary
appointed to receive VA benefits on an individual's
behalf); the applicable Department of Veterans
Affairs file number; and the date of the Board
of Veterans' Appeals decision, or decisions, to be
reconsidered. It must also set forth clearly and
specifically the alleged obvious error, or errors, of fact
or law in the applicable decision, or decisions, of the
Board or other appropriate basis for requesting
Reconsideration. If the applicable Board of Veterans'
Appeals decision, or decisions, involved more than
one issue on appeal, the motion for reconsideration
must identify the specific issue, or issues, to which
the motion pertains. Issues not so identified will not
be considered in the disposition of the motion.
(b) Filing of motion for reconsideration. A motion for
reconsideration of a prior Board of Veterans'
Appeals decision may be filed at any time.
Such motions must be filed at the following address:
Board of Veterans' Appeals, P.O. Box 27063,
Washington, DC 20038.
(c) Disposition. The Chairman will review the
sufficiency of the allegations set forth in

App.75a

the motion and, depending upon the decision reached,
proceed as follows:
The
(l) Motion
denied.
appellant
and
representative or other appropriate party will be
notified if the motion is denied. The notification will
include reasons why the allegations are found
insufficient. This constitutes final disposition of
the motion.
(2) Motion allowed. If the motion is allowed,
the appellant and his or her representative, if any,
will
be
notified.
The appellant and
the
representative will be given a period of 60 days from
the date of mailing of the letter of notification to
present additional arguments or evidence. The date
of mailing of the letter of notification will be
presumed to be the same as the date of the letter of
notification. The Chairman will assign a
Reconsideration panel in accordance with Rule 1004
(§ 20.1004).
38 C.F.R. Subpart 1/ Finality 38 CFR 20.1100;
Finality of decisions of the Board
(a) General. All decisions of the Board will be stamped
with the date of mailing on the face of the decision.
Unless the Chairman of the Board orders
reconsideration, and with the exception of matters
listed in paragraph (b) of this section, all Board
decisions are final on the date stamped on the face of
the decision. With the exception of matters listed
in paragraph (b) of this section, the decision rendered
by the reconsideration Panel in an appeal in which the
Chairman has ordered reconsideration is final.

App.76a

(b) Exceptions. Final Board decisions are not subject
to review except as provided in 38 U.S.C. 1975 and
1984 and 38 U.S.C. chapters 37 and 72. A remand is
in the nature of a preliminary order and does not.
constitute a final decision of the Board.
38 C.F.R. Subpart M: Privacy Act; 38 CFR 20.1201;
Amendment of appellate decisions
A request for amendment of an appellate decision
under the Privacy Act (5 U.S.C. 552a) may be
entertained. However, such a request may not be used
in lieu of, or to circumvent, the procedures established
under Rules 1001 through 1004 (§§ 20.1001-20.1004).
The Board will review a request for correction of
factual information set forth in a decision. Where the
request to amend under the Privacy Act is an attempt
to alter a judgment made by the Board and thereby
replace the adjudicatory authority and functions of
the Board, the request will be denied on the basis that
the Act does not authorize a collateral attack upon
that which has already been the subject of a decision
of the Board. The denial will satisfy the procedural
requirements of § 1.579 of this chapter. If otherwise
appropriate, the request will be considered one for
reconsideration under Rules 1001 through 1004 (§§
20.1001-20.1004).
38 C.F.R. Subpart O' Revision Based on Clear and
Unmistakable Error
38 CFR 20.1400; Motions to revise Board decisions
(a) Review to determine whether clear and
unmistakable error exists in a final Board decision
may be initiated by the Board, on its own motion, or
by a party to that decision (as the term “party” is

App.77a

defined in Rule 1401(b) (§ 20.1401(b) of this part) in
accordance with Rule 1404 (§ 20.1404 of this part).
(b) All final Board decisions are subject to revision
under this subpart except:
(1) Decisions on issues which have been appealed to
and decided by a court of competent jurisdiction;
and
(2) Decisions on issues which have subsequently
been decided by a court of competent jurisdiction.
38 CFR 20.1401; Definitions
(a) Issue. Unless otherwise specified, the term “issue”
in this subpart means a matter upon which the Board
made a final decision (other than a decision under this
subpart). As used in the preceding sentence, a “final
decision” is one which was appealable under Chapter
72 of title 38, United States Code, or which would
have been so appealable if such provision had been in
effect at the time of the decision.
(b) Party. As used in this subpart, the term “party”
means any party to the proceeding before the Board
that resulted in the final Board decision which is the
subject of a motion under this subpart.
38 CFR 20.1402. Inapplicability of other rules.
Motions filed under this subpart are not appeals and,
except as otherwise provided, are not subject to the
provisions of part 19 of this title or this part 20 which
relate to the processing and disposition of appeals.
38 CFR 20.1403. What constitutes
unmistakable error; what does not.

clear and

(a) General. Clear and unmistakable error is a very
specific and rare kind of error. It is the kind of error,

App.78a

of fact or of law, that when called to the attention of
later reviewers compels the conclusion, to which
reasonable minds could not differ, that the result
would have been manifestly different but for the error.
Generally, either the correct facts, as they were known
at the time, were not before the Board, or the statutory
and regulatory provisions extant at the time were
incorrectly applied.
(b) Record to be reviewed (1) General. Review for clear and unmistakable
error in a prior Board decision must be based on the
record and the law that existed when that decision
was made.
(2) Special rule for Board decisions on legacy
appeals issued on or after July 21, 1992. For a
Board decision on a legacy appeal as defined in §
19.2 of this chapter issued on or after July 21, 1992,
the record that existed when that decision was
made includes relevant documents possessed by
the Department of Veterans Affairs not later than
90 days before such record was transferred to the
Board for review in reaching that decision, provided
that the documents could reasonably be expected to
be part of the record.
(c) Errors that constitute clear and unmistakable
error. To warrant revision of a Board decision on the
grounds of clear and unmistakable error, there must
have been an error in the Board's adjudication of
the appeal which, had it not been made, would have
manifestly changed the outcome when it was made. If
it is not absolutely clear that a different result would
have ensued, the error complained of cannot be clear
and unmistakable.

App.79a

38 CFR 20.1405 Disposition.
(a) Docketing and
representative -

assignment>

notification

of

(1) General. Motions under this subpart will be
docketed in the order received and will be assigned
in accordance with § 20.106 (relating to assignment
of proceedings). Where an appeal is pending on the
same underlying issue at the time the motion is
received,
the motion and the appeal may be
consolidated under the same docket number and
disposed of as part of the same proceeding.
A motion may not be assigned to any Member who
participated in the decision that is the subject of
the motion. If a motion is assigned to a panel, the
decision will be by a majority vote of the panel
Members.
(2) Advancement on the docket A motion may be
advanced on the docket subject to the same
substantive and procedural requirements as those
applicable to an appeal under Rule 800, paragraph
(c) (§ 20.800(c)) or, for legacy appeals, Rule 902,
paragraph (c) (§ 20.902(c)).
(3) Notification of representative. When the Board
receives a motion under this subpart from an
individual whose claims file indicates that he or she
is represented, the Board shall provide a copy of
the motion to the representative before assigning
the motion to a Member or panel. Within 30 days
after the date on which the Board provides a copy of
the motion to the representative, the representative
may file a relevant response, including a request to
review the claims file prior to filing a further
response. Upon request made within the time
allowed under this paragraph (a)(2), the Board shall

App.80a

arrange for the representative to have the
opportunity to review the claims file, and shall
permit the representative a reasonable time after
making the file available to file a further response.
(b) Evidence. No new evidence will be considered in
connection with the disposition of the motion.
Material included in the record on the basis of Rule
1403(b)(2) (§ 20.1403(b)(2) of this part) is not
considered new evidence.
(c) Hearing (1) Availability. The Board may, for good cause
shown, grant a request for a hearing for the purpose
of argument. No testimony or other evidence will be
admitted in connection with such a hearing. The
determination as to whether good cause has been
shown shall be made by the member or panel to
whom the motion is assigned.
(2) Submission of requests. Requests for such a
hearing shall be submitted to the following address'
Board of Veterans' Appeals, P.O. Box 27063,
Washington, DC 20038.
(d) Referral to ensure completeness of the
record. Subject to the provisions of paragraph (b) of
this section, the Board may use the various agencies
of original jurisdiction to ensure completeness of the
record in connection with a motion under this
subpart.
(e) General Counsel opinions. The Board may secure
opinions of the General Counsel in connection with
a motion under this subpart. In such cases, the Board
will notify the party and his or her representative, if
any. When the opinion is received by the Board, a copy
of the opinion will be furnished to the party's

App.81a

representative or, subject to the limitations provided
in 38 U.S.C. 5701(b)(1), to the party if there is no
representative. A period of 60 days from the date of
mailing of a copy of the opinion will be allowed for
response. The date of mailing will be presumed to be
the same as the date of the letter or memorandum
which accompanies the copy of the opinion for
purposes of determining whether a response was
timely filed.
(0 Decision. The
decision of the Board on
a motion under this subpart will be in writing. The
decision will include separately stated findings of fact
and conclusions of law on all material questions of fact
and law presented on the record, the reasons or bases
for those findings and conclusions, and an order
granting or denying the motion.

FEDERAL RULES OF CIVIL PROCEDURE
Fed.R. Civ. P. 11- Rule 11. Signing Pleadings,
Motions, and Other Papers? Representations to the
Court? Sanctions
(a) SIGNATURE. Every pleading, written motion, and
other paper must be signed by at least one attorney of
record in the attorney’s name—or by a party
personally if the party is unrepresented. The paper
must state the signer’s address, e-mail address, and
telephone number. Unless a rule or statute
specifically states otherwise, a pleading need not be
verified or accompanied by an affidavit. The court
must strike an unsigned paper unless the omissionis
promptly corrected after being called to the attorney’s
or party’s attention.

App.82a

(b) REPRESENTATIONS TO THE COURT. By
presenting to the court a pleading, written motion, or
other paper—whether by signing, filing, submitting,
or later advocating it—an attorney or unrepresented
party certifies that to the best of the person’s
knowledge, information, and belief, formed after an
inquiry reasonable under the circumstances:
(1) it is not being presented for any improper purpose,
such as to harass, cause unnecessary delay, or
needlessly increase the cost of litigation;
(2) the claims, defenses, and other legal contentions
are warranted by existing law or by a nonfrivolous
argument for extending, modifying, or reversing
existing law or for establishing new law;
(3) the factual contentions have evidentiary support
or, if specifically so identified, will likely have
evidentiary support after a reasonable opportunity for
further investigation or discovery; and
(4) the denials of factual contentions are warranted on
the evidence or, if specifically so identified, are
reasonably based on belief or a lack of information.
(c) SANCTIONS, (l) In General. If, after notice and a
reasonable opportunity to respond, the court
determines that Rule 11(b) has been violated, the
court may impose an appropriate sanction on any
attorney, law firm, or party that violated the rule or is
responsible for the violation. Absent exceptional
circumstances, a law firm must be held jointly
responsible for a violation committed by its partner,
associate, or employee. (2) Motion for Sanctions. A
motion for sanctions must be made separately from

App.83a

any other motion and must describe the specific
conduct that allegedly violates Rule 11(b). The motion
must be served under Rule 5, but it must not be filed
or be presented to the court if the challenged paper,
claim, defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service or
within another time the court sets. If warranted, the
court may award to the prevailing party the
reasonable expenses, including attorney’s fees,
incurred for the motion.
(3) On the Court’s Initiative. On its own, the court may
order an attorney, law firm, or party to show cause
why conduct specifically described in the order has not
violated Rule 11(b).
(4) Nature of a Sanction. A sanction imposed under
this rule must be limited to what suffices to deter
repetition of the conduct or comparable conduct by
others similarly situated. The sanction may include
nonmonetary directives; an order to pay a penalty into
court; or, if imposed on motion and warranted for
effective deterrence, an order directing payment to the
movant of part or all of the reasonable attorney’s fees
and other expenses directly resulting from the
violation.
(5) Limitations on Monetary Sanctions. The court
must not impose a monetary sanction^ (A) against a
represented party for violating Rule 11(b)(2); or (B) on
its own, unless it issued the show-cause order under
Rule 11(c)(3) before voluntary dismissal or settlement
of the claims made by or against the party that is, or
whose attorneys are, to be sanctioned. (6)
Requirements for an Order. An order imposing a

App.84a

sanction must describe the sanctioned conduct and
explain the basis for the sanction.
(d) INAPPLICABILITY TO DISCOVERY. This rule
does not apply to disclosures and discovery requests,
responses, objections, and motions under Rules 26
through 37.
Fed. R. Civ. P. 12- Rule 12. Defenses and Objections:
When and How Presented; Motion for Judgment on
the Pleadings; Consolidating Motions; Waiving
Defenses; Pretrial Hearing
(a) TIME TO SERVE A RESPONSIVE PLEADING.
(1) In General. Unless another time is specified by this
rule or a federal statute, the time for serving a
responsive pleading is as follows:
(A) A defendant must serve an answer: (i) within 21
days after being served with the summons and
complaint; or (ii) if it has timely waived service under
Rule 4(d), within 60 days after the request for a waiver
was sent, or within 90 days after it was sent to the
defendant outside any judicial district of the United
States.
(B) A party must serve an answer to a counterclaim or
crossclaim within 21 days after being served with the
pleading that states the counterclaim or crossclaim.
(C) A party must serve a reply to an answer within 21
days after being served with an order to reply, unless
the order specifies a different time.
(2) United States and Its Agencies, Officers, or
Employees Sued in an Official Capacity. The United

App.85a

States, a United States agency, or a United States
officer or employee sued only in an official capacity
must serve an answer to a complaint, counterclaim, or
crossclaim within 60 days after service on the United
States attorney.
(3) United States Officers or Employees Sued in an
Individual Capacity. A United States officer or
employee sued in an individual capacity for an act or
omission occurring in connection with duties
performed on the United States’ behalf must serve an
answer to a complaint, counterclaim, or crossclaim
within 60 days after service on the officer or employee
or service on the United States attorney, whichever is
later. (4) Effect of a Motion. Unless the court sets a
different time, serving a motion under this rule alters
these periods as follows:
(A) if the court denies the motion or postpones its
disposition until trial, the responsive pleading must
be served within 14 days after notice of the court’s
action; or
(B) if the court grants a motion for a more definite
statement, the responsive pleading must be served
within 14 days after the more definite statement is
served.
(b) HOW TO PRESENT DEFENSES. Every defense
to a claim for relief in any pleading must be asserted
in the responsive pleading if one is required. But a
party may assert the following defenses by motion^
(1) lack of subject-matter jurisdiction;
(2) lack of personal jurisdiction;

App.86a

(3) improper venue;
(4) insufficient process;
(5) insufficient service of process;
(6) failure to state a claim upon which relief can be
granted; and
(7) failure to join a party under Rule 19. A motion
asserting any of these defenses must be made before
pleading if a responsive pleading is allowed. If a
pleading sets out a claim for relief that does not
require a responsive pleading, an opposing party may
assert at trial any defense to that claim. No defense or
objection is waived by joining it with one or more other
defenses or objections in a responsive pleading or in a
motion.
(c) MOTION FOR JUDGMENT ON THE
PLEADINGS. After the pleadings are closed—but
early enough not to delay trial—a party may move for
judgment on the pleadings.
(d) RESULT OF PRESENTING MATTERS OUTSIDE
THE PLEADINGS. If, on a motion under Rule 12(b)(6)
or 12(c), matters outside the pleadings are presented
to and not excluded by the court, the motion must be
treated as one for summary judgment under Rule 56.
All parties must be given a reasonable opportunity to
present all the material that is pertinent to the
motion.
(e)
MOTION
FOR
A
MORE
DEFINITE
STATEMENT. A party may move for a more definite
statement of a pleading to which a responsive
pleading is allowed but which is so vague or

App.87a

ambiguous that the party cannot reasonably prepare
a response. The motion must be made before filing a
responsive pleading and must point out the defects
complained of and the details desired. If the court
orders a more definite statement and the order is not
obeyed within 14 days after notice of the order or
within the time the court sets, the court may strike
the pleading or issue any other appropriate order.
(f) MOTION TO STRIKE. The court may strike from
a pleading an insufficient defense or any redundant,
immaterial, impertinent, or scandalous matter. The
court may act: (l) on its own; or (2) on motion made by
a party either before responding to the pleading or, if
a response is not allowed, within 21 days after being
served with the pleading.
(g) JOINING MOTIONS, (l) Right to Join. A motion
under this rule may be joined with any other motion
allowed by this rule. (2) Limitation on Further
Motions. Except as provided in Rule 12(h)(2) or (3), a
party that makes a motion under this rule must not
make another motion under this rule raising a defense
or objection that was available to the party but
omitted from its earlier motion.
(h) WAIVING AND PRESERVING CERTAIN
DEFENSES, (l) When Some Are Waived. A party
waives any defense listed in Rule 12(b)(2)—(5) by:
(A) omitting it from a motion in the circumstances
described in Rule 12(g)(2); or (B) failing to either: (i)
make it by motion under this rule; or (ii) include it in
a responsive pleading or in an amendment allowed by
Rule 15(a)(1) as a matter of course. (2) When to Raise

App.88a

Others. Failure to state a claim upon which relief can
be granted, to join a person required by Rule 19(b), or
to state a legal defense to a claim may be raised: (A)
in any pleading allowed or ordered under Rule 7(a);
(B) by a motion under Rule 12(c); or (C) at trial. (3)
Lack of Subject-Matter Jurisdiction. If the court
determines at any time that it lacks subject-matter
jurisdiction, the court must dismiss the action, (i)
HEARING BEFORE TRIAL. If a party so moves, any
defense listed in Rule 12(b)(l)-(7)—whether made in
a pleading or by motion— and a motion under Rule
12(c) must be heard and decided before trial unless the
court orders a deferral until trial.

App.89a

DEPARTMENT OF JUSTICE: CIVIL RESOURCE
MANUAL-36.
EFFECT
OF
DECLARATORY
JUDGMENT
ACT
AND
ADMINISTRATIVE
PROCEDURE ACT
The Congress has enacted a partial waiver of the
sovereign immunity defense as to judicial review
under the Administrative Procedure Act, 5 U.S.C. §
701, et seq. By Pub.L. No. 94-574, Act of October 21,
1976, 90 Stat. 2721, 5 U.S.C. § 702 was amended to
provide that an ("action in a court of the United States
seeking relief other than money damages and stating
a claim that an agency or an officer or employee
thereof acted or failed to act in an official capacity or
under color of legal authority shall not be dismissed
nor relief therein be denied on the ground that it is
against the United States or that the United States is
an indispensable party.") In addition, 5 U.S.C. § 703
has been amended to allow suit to be brought against
the United States or any of its agencies or officers.
The sovereign immunity defense has been withdrawn
only with respect to actions seeking specific relief
other than money damages, such as an injunction, a
declaratory judgment, or a writ of mandamus. Bowen
v. Massachusetts, 487 U.S. 879 (1988). Specific
statutory provisions for the recovery of money
damages, such as the Little Tucker Act and the
Federal Tort Claims Act, are unaffected. See H.Rep.
94-1656, p. 13, 1976 U.S.Code Cong. & Ad.News 6133.
Another barrier to judicial review of administrative
action was removed by section 2 of Pub.L. No. 94-574,
which amended 28 U.S.C. § 1331(a) so as to eliminate
the $10,000 amount-in-controversy requirement in
actions against the United States, any agency thereof,

App.90a

or any officer or employee thereof in his official
capacity. This provision persuaded the Supreme Court
to conclude that, subject to preclusion-of-review
statutes, jurisdiction to review agency action is
conferred by 28 U.S.C. § 1331, and that the
Administrative Procedure Act is not an independent
grant of jurisdiction. See Califano v. Sanders, 430 U.S.
99, 105-07 (1977).
Similarly, the Declaratory Judgment Act, 28 U.S.C. §
2201, is not an independent source of federal
jurisdiction. The purpose of that Act is merely to
provide an additional remedy, once jurisdiction is
found to exist on another ground. See Benson v. State
Bd. of Parole and Probation, 384 F.2d 238, 239 (9th
Cir. 1967), cert, denied, 391 U.S. 954 (1968); Schilling
v. Rogers, 363 U.S. 666, 677 (i960). Therefore, where
jurisdiction to review a particular agency action under
28 U.S.C. § 1331 has been precluded by another
statute, the Declaratory Judgment Act does not
provide an independent basis for granting relief.
Source: www.justice. gov/j m/civil-resource -manual- 36 declaratory-judgment-act-and-ada

